<html>
<title> - THE UPCOMING 18TH REGULAR MEETING OF THE INTERNATIONAL COMMISSION FOR THE CONSERVATION OF ATLANTIC TUNAS (ICCAT)</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
THE UPCOMING 18TH REGULAR MEETING OF THE INTERNATIONAL COMMISSION FOR 
              THE CONSERVATION OF ATLANTIC TUNAS (ICCAT)

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 30, 2003

                               __________

                           Serial No. 108-76

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 _______

                        U.S. GOVERNMENT PRINTING OFFICE

90-159                            WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001





















                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 30, 2003.......................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     8
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
        Prepared statement of....................................     4
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey, Prepared statement of.......................     9

Statement of Witnesses:
    Delaney, Glenn R., U.S. ICCAT Commercial Commissioner........    14
        Prepared statement of....................................    16
    Genovese, Michael P., Sr., Commercial Fisherman and Member of 
      the U.S. ICCAT Advisory Committee, and Vice President, 
      White Dove, Inc............................................    36
        Prepared statement of....................................    37
    Graves, Dr. John E., Chairman, U.S. ICCAT Advisory Committee.    43
        Prepared statement of....................................    45
    Hayes, Robert G., U.S. ICCAT Recreational Commissioner.......    24
        Prepared statement of....................................    26
    Hogarth, Dr. William T., Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, U.S. 
      Department of Commerce.....................................    10
        Prepared statement of....................................    12
    Moore, Herb, Jr., Director of Government Affairs, 
      Recreational Fishing Alliance..............................    51
        Prepared statement of....................................    54
    Wilmot, Dr. David B., Jr., Member of the U.S. ICCAT Advisory 
      Committee, Rising Tide Consulting..........................    46
        Prepared statement of....................................    48

Additional materials supplied:
    Hinman, Ken, President, National Coalition for Marine 
      Conservation, Statement submitted for the record...........     5

















     OVERSIGHT HEARING ON THE UPCOMING 18TH REGULAR MEETING OF THE 
INTERNATIONAL COMMISSION FOR THE CONSERVATION OF ATLANTIC TUNAS (ICCAT)

                              ----------                              


                       Thursday, October 30, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Members Present: Representatives Gilchrest, Pallone, 
Faleomavaega, and Bordallo.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order. We 
appreciate everyone's forbearance and patience with the ongoing 
saga of the changing descriptions of a college student, slash, 
whatever someone has seen in complex. The Cannon Office 
Building is still locked down, as we understand it. The 
description has been changed from a man to a young woman, long 
brown hair, pink shirt and a backpack. So I think she was one 
of the New Jersey Devils, although I am not sure. Mr. Pallone 
made some inquiry as to where she came from.
    But I appreciate your attendance here. I apologize for 
starting a little bit late. Any updates on security will 
certainly be passed along to all of you, but I would like to 
welcome you all here this afternoon. We look forward to your 
testimony and a lively hearing that is informative.
    Since most of our witnesses are either Commissioners or are 
members of the U.S. ICCAT Advisory Committee, I understand 
almost everyone here will be traveling to Dublin in just over 2 
weeks to attend this year's annual meeting, and I would just 
recommend that you stay away from the Guiness beer over there 
while you are there unless you have a strong stomach. Not 
everybody agrees with that.
    Well, this year's ICCAT meeting will not involve the 
renewal of <plus-minus><plus-minus>any quotas from member 
nations. I hope the focus will be on compliance. I know that 
the U.S. delegation has heard this again and again from our 
members, but it is extremely hard for us to put more and more 
restrictions on our own fishermen when other nations continue 
to ignore the quotas and conservation recommendations of the 
Commission.
    Just this week the House passed H. Con. Res. 268, which 
expresses the sense of Congress regarding the imposition of 
sanctions on nations that are undermining the effectiveness of 
conservation in management measures for Atlantic highly 
migratory species, including marlin, adopted by the 
International Commission for the Conservation of Atlantic Tunas 
that are threatening the continued viability of the United 
States commercial and recreational fisheries.
    The petition to list white marlin as endangered on the 
Endangered Species Act that was filed last year certainly 
raised the concern that noncompliance by other nations could 
have disastrous effects on U.S. fishermen, despite causing less 
than 5 percent of the mortality of white marlin. A listing 
under the Endangered Species Act could have closed the 
recreation of billfish tournaments throughout the Atlantic and 
could have closed a number of commercial fisheries which have 
incidental interactions with white marlin.
    The U.S. has consistently pushed for conservation measures 
at ICCAT. In fact, the U.S. delegation led the efforts to 
implement the swordfish rebuilding plan which has proven to be 
very successful. We need to continue to push for conservation 
measures that will allow species such as marlins to reach a 
sustainable level, and we need to push for binding sanctions 
for all species that are managed by ICCAT.
    And I look forward to your testimony here this afternoon, 
and I am not sure which Members are traveling to Dublin to 
buttress the U.S. efforts over there, but I wish you well in 
that arena.
    I yield now to the gentleman from New Jersey, Mr. Pallone.
    [The prepared statement of Mr. Gilchrest follows:]

         Statement of The Honorable Wayne Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    I would like to welcome our witnesses today.
    Since most of our witnesses are either Commissioners or are members 
of the U.S. ICCAT Advisory Committee, I understand almost everyone here 
will be traveling to Dublin in just over two weeks to attend ths year's 
annual meeting.
    While this year's ICCAT meeting will not involve the renewal of any 
quotas for member nations, I hope the focus will be on compliance.
    I know that the U.S. delegation has heard this again and again from 
our members, but it is extremely hard for us to put more and more 
restrictions on our own fishermen when other nations continue to ignore 
the quotas and conservation recommendations of the commission.
    Just this week, the House passed H. Con. Res. 268, which expresses 
the sense of Congress regarding the imposition of sanctions on nations 
that are undermining the effectiveness of conservation and management 
measures for Atlantic highly migratory species, including marlin, 
adopted by the International Commission for the Conservation of 
Atlantic Tunas and that are threatening the continued viability of 
United States commercial and recreational fisheries.
    The petition to list white marlin as endangered under the 
Endangered Species Act that was filed last year certainly raised the 
concern that noncompliance by other nations could have disastrous 
effects on U.S. fishermen. Despite causing less than 5 percent of the 
mortality of white marlin, a listing under the Endangered Species Act 
could have closed the recreation billfish tournaments throughout the 
Atlantic and could have closed a number of fisheries which have 
incidental interactions with white marlin.
    The U.S. has consistently pushed for conservation measures at 
ICCAT. In fact, the U.S. delegation led the efforts to implement the 
swordfish rebuilding plan which has proven to be very successful.
    We need to continue to push for conservation measures that will 
allow species such as marlins to reach a sustainable level, and we need 
to push for binding sanctions for all species that are managed by 
ICCAT.
    I look forward to hearing from all of you about the issues that you 
think will be the most crucial for the U.S. delegation at the upcoming 
meeting and how we can be helpful.
                                 ______
                                 

STATEMENT OF THE HONORABLE FRANK PALLONE, JR. A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I am one of those 
that is supposed to be going to the ICCAT meeting in Dublin, 
but I guess we don't really know with the House schedule 
whether we are going to be able to go or not. It will be 
interesting to see as things develop over the next few weeks.
    I just wanted to say I am very pleased to see that so much 
of the Subcommittee's time and effort is going toward 
addressing the issues associated with our highly migratory 
species fisheries, especially those managed under ICCAT. 
Successfully reporting H. Con. Res. 268 from the House was 
certainly an impressive accomplishment, and I hope that those 
of us here that are attending the upcoming ICCAT meeting will 
take note of that.
    I would also like to echo, however, the eloquent comments 
made on the House Floor on Tuesday by my colleague Mr. 
Faleomavaega. ICCAT is but one of the--a number of 
international fisheries management bodies dealing with issues 
of compliance, illegal trade bycatch and depleted stocks. While 
Atlantic highly migratory species deserve every amount of time 
we have devoted to them, I know my fellow Democrats on this 
Subcommittee, three of whom are from districts literally in the 
Pacific Ocean, are equally concerned about Pacific highly 
migratory species, and I hope that once we have fulfilled our 
goals this November in Dublin, we might turn our attention to 
the far Western coast of our country.
    It is almost universally accepted that the U.S. has been at 
the forefront of international fisheries conservation and 
management. I urge our ICCAT Commissioners to continue this 
tradition.
    While I have no doubt that historically controversial 
issues will consume our U.S. delegation, I encourage them to 
think outside of the box.
    Increasingly scientists are finding that the removal of top 
predators from ecosystems have effects that resonate through 
their respective environments. To demonstrate that the 
ecosystem effects of larger predator removal are not restricted 
to the Atlantic Ocean but are in fact a global problem, I would 
like to submit an article from the proceedings of the National 
Academy of Science regarding the vast changes in the North 
Pacific food web due to the removal of whales by now-defunct 
industrial whaling practices.
    The article, Mr. Chairman, makes the important point that 
the systematic catch of these large whales remove the major 
prey for Orcas, or killer whales, in the region. And 
consequently, this led to the eventual shift toward the Orcas 
feeding on smaller marine mammals such as seals.
    Examples of this phenomena also occurred in terrestrial 
ecosystems, and therefore I would like to submit for the record 
an article concerning the systematic effect of wolves returning 
to Yellowstone for the information of members. I am giving you 
a lot of things for the record here, Mr. Chairman.
    And though it may be difficult, I urge a shift toward an 
ecosystem-level approach with regard to both the research and 
the management under ICCAT, and I know that you have often 
talked about that, Mr. Gilchrest.
    While we continue to promote compliance and cooperation 
amongst contracting parties, we must also confront the 
questions of how to account for the unregulated fishing of 
nations who are not members of ICCAT. We heard at our September 
11th hearing that our Administration is limited in its ability 
to take unilateral action against countries to accomplish 
fisheries management goals. Therefore, we as a Congress must 
actively encourage broader global participation in and 
adherence to the goals of these international organizations.
    As Mr. Balton, the State Department witness, said at our 
last hearing, no one state operating on its own can produce a 
successful solution. Although it appears we have had our hands 
full negotiating with the current ICCAT members, we should 
remember that any successes are limited to contracting 
countries.
    I look forward to hearing from all of our witnesses today, 
to know not only what the most pressing issues at ICCAT will be 
this year but also how you suggest we address them in Dublin 
and beyond.
    And, Mr. Chairman, I just want to take the opportunity to 
submit another article that I mentioned on our September 11th 
hearing but didn't provide for the record. This paper, 
published in the Journal of Science in January, estimates the 
populations of several large coastal and oceanic sharks have 
declined by over 75 percent in the past 15 years. ICCAT 
compiles data on the bycatch of sharks, but it seems that 
little is being done internationally to prevent their rapid 
dissemination.
    And finally I would like to submit a statement for the 
record from Mr. Ken Hinman, the President for the National 
Coalition of Marine Conservation. I am giving you all these 
things for the record today and I want to thank you again for 
having the hearing.
    Mr. Gilchrest. Thank you, Mr. Pallone, and we will try to 
pursue the reading of those articles, and we will submit them 
to the record.
    [NOTE: Due to copyright restrictions, the articles have 
been retained in the Committee's official files.]
    [The prepared statement of Mr. Pallone follows:]

      Statement of The Honorable Frank Pallone, Ranking Democrat, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Thank you, Mr. Chairman. I am very pleased to see that so much of 
the Subcommittee's time and effort is going towards addressing the 
issues associated with our highly migratory species fisheries, 
especially those managed under the International Convention for the 
Conservation of Atlantic Tunas (ICCAT). Successfully reporting H. Con. 
Res. 268 from the House is an impressive accomplishment, and I hope 
those of us here that are attending the upcoming ICCAT meeting will 
take note.
    I would like to echo, however, the eloquent comments on the House 
Floor Tuesday of my colleague Mr. Faleomavaega. ICCAT is but one of a 
number of international fisheries management bodies dealing with issues 
of compliance, illegal trade, bycatch, and depleted stocks. While 
Atlantic highly migratory species (HMS) deserve every minute of time we 
have devoted to them, I know my fellow Democrats on the Subcommittee--
three of whom are from districts literally in the Pacific Ocean--are 
equally concerned about Pacific HMS. I hope that once we have fulfilled 
our goals this November in Dublin, we might turn our attention to the 
far Western Coast of our country.
    It is almost universally accepted that the U.S. has been at the 
forefront of international fisheries conservation and management. I 
urge our ICCAT Commissioners to continue this tradition. While I have 
no doubt that historically controversial issues will consume our U.S. 
delegation, I encourage them to think outside of the box.
    Increasingly scientists are finding that the removal of top 
predators from ecosystems has effects that resonate through their 
respective environments. To demonstrate that the ecosystem effects of 
large predator removal are not restricted to the Atlantic Ocean, but 
are in fact a global problem, I would like to submit an article from 
the Proceedings of the National Academy of Science, regarding the vast 
changes in the North Pacific food web due to the removal of whales by 
now-defunct industrial whaling practices. The article makes the 
important point that the systematic catch of these large whales removed 
the major prey items for Orcas, or killer whales, in the region. 
Consequently, this led to the eventual shift toward the Orcas feeding 
on smaller marine mammals, such as seals.
    Examples of this phenomenon also occur in terrestrial ecosystems 
and therefore I would like to submit for the record an article 
concerning the systemic effect of wolves returning to Yellowstone for 
the information of members. Accordingly, and though it may be 
difficult, I urge a shift toward an ecosystem level approach with 
regard to both the research and management under ICCAT.
    While we continue to promote compliance and cooperation among 
contracting parties, we must also confront the questions of how to 
account for the unregulated fishing of nations who are not members of 
ICCAT.
    We heard at our September 11th hearing that our Administration is 
limited in its ability to take unilateral action against countries to 
accomplish fisheries management goals. Therefore, we, as a Congress, 
must actively encourage broader global participation in, and adherence 
to, the goals of these international organizations.
    As Mr. Balton, the State Department witness, said at our last 
hearing, ``No one state operating on its own can produce a successful 
solution.'' Although it appears we have our hands full negotiating with 
the current ICCAT members, we should remember that any successes are 
limited to contracting countries.
    I look forward to hearing from all our witnesses today to know not 
only what the most pressing issues at ICCAT will be this year, but also 
how you suggest we address them in Dublin and beyond.
    Mr. Chairman, I would also like to take this opportunity to submit 
an article that I mentioned at our September 11th hearing, but did not 
provide for the record. This paper, published in the journal Science in 
January, estimates that populations of several large coastal and 
oceanic sharks have declined by over 75 percent in the past 15 years. 
ICCAT compiles data on the bycatch of sharks, but it seems that little 
is being done internationally to prevent their rapid decimation.
    Finally, I would like to submit a statement for the record from Mr. 
Ken Hinman, the President of the National Coalition for Marine 
Conservation.
    Thank you.
                                 ______
                                 
    [The statement submitted for the record by Ken Hinman, 
President, National Coalition for Marine Conservation, 
follows:]

                  Statement of Ken Hinman, President, 
               National Coalition for Marine Conservation

    Mr. Chairman and members of the Committee, I appreciate this 
opportunity to submit testimony regarding United States participation 
in the International Commission for the Conservation of Atlantic Tunas 
(ICCAT), and specifically, what we, as a nation, can do to make the 
commission more effective in conserving highly migratory species of the 
Atlantic Ocean.
    The National Coalition for Marine Conservation, the nation's oldest 
public advocacy organization dedicated exclusively to conserving ocean 
fish and their environment, has been promoting the conservation and 
management of tunas, swordfish and billfish for over 30 years. I have 
been personally involved in highly migratory species conservation, at 
the national and international levels, for more than 25 years. During 
this time, I've served on the U.S. Advisory Committee to ICCAT and as 
Chairman of the South Atlantic Council's Billfish Advisory Panel. I've 
published over 100 articles about ``big fish conservation'' and served 
for 11 years as the regular conservation columnist for Marlin magazine. 
As program coordinator for NCMC's ``Marine Fisheries Symposium'' 
series, I organized the 2nd International Billfish Symposium in 1988 
(overseeing publication of the two-volume proceedings, Planning the 
Future of Billfishes) and the 1996 symposium on managing highly 
migratory species of the Pacific Ocean (editing the proceedings, 
Getting Ahead of the Curve: Conserving the Pacific Ocean's Swordfish, 
Tunas, Billfish and Sharks).
    Over the past three decades, I have seen ICCAT struggle to control 
overfishing of most of the species under its purview, beginning with 
bluefin tuna in the 1970s. The commission has had precious little 
success, with the recent exception of North Atlantic swordfish, which 
appears to be in the early stages of recovery. But even in the case of 
swordfish, as with bluefin tuna, the U.S. has often been frustrated by 
the lack of cooperation from other ICCAT members (not to mention the 
problem of illegal and unregulated fishing by nonmembers).
    Although our own record is far from perfect--segments of our own 
fishing industry have at times thwarted conservation and ignored the 
best scientific advice for short-term gain, and here I'm thinking of 
bluefin--the U.S. is without question the leading voice for 
conservation and sustainable fisheries at ICCAT. In most cases, we have 
led by example, i.e., by demonstrating our commitment to our professed 
conservation goals by acting on them first (as the U.S. Magnuson 
Fishery Conservation and Management Act mandates). I've said many times 
that virtually every agreement by ICCAT to conserve Atlantic highly 
migratory species has originated with the U.S. delegation. The converse 
of that is, without U.S. leadership, ICCAT does nothing.
    All of this leads me to what the National Coalition for Marine 
Conservation considers the most pressing issue before ICCAT over the 
next few years, and the one that demands the most attention from the 
U.S. delegation--international conservation of Atlantic billfish, 
specifically blue and white marlin. Because of the dire condition of 
these fish, and the difficult challenge of minimizing fishing mortality 
on species that are taken primarily as bycatch in other fisheries, 
rebuilding marlin populations will require aggressive and sustained 
leadership by the United States beginning immediately.
    We urge Congress (and the Administration) to insist that the U.S. 
delegation to ICCAT, at each meeting between now and 2005, including 
the upcoming meeting in Dublin, Ireland, be united in its mission--to 
get the strongest possible conservation of blue and white marlin when 
the commission reviews the next scheduled assessment in 2005 and 
develops a long-range billfish rebuilding program.

                             * * * * * * *

    Populations of blue and white marlin in the Atlantic are at all-
time lows. Although recently denied for listing as a threatened or 
endangered species, the white marlin remains a Candidate Species for 
listing under the U.S. Endangered Species Act, because its numbers have 
dropped to around 6% of historical abundance (i.e., before the advent 
of intensive long-lining in the 1960s). Blue marlin populations are 
only marginally better off.
    ICCAT's Standing Committee on Research and Statistics will assess 
the condition of blue and white marlin stocks again in 2005. The ICCAT 
billfish conservation program, adopted in 2000, will be revised, based 
on that assessment, at the November '05 annual meeting. According to 
the last assessment in 2000, the white marlin population had been 
overfished to just 13% of the level needed to produce the maximum 
sustainable yield (MSY), while blue marlin was reduced to 40% of its 
estimated MSY level. Both were still in decline three years ago because 
of excessive fishing mortality throughout their range.
    Blue and white marlin are accidentally killed by commercial 
longlines and nets set for swordfish. Today, this bycatch accounts for 
over 95% of all marlin killed in the Atlantic. Current ICCAT 
regulations strictly limit landings of marlin (although indications are 
that these regulations are not being adhered to). Nevertheless, even 
prohibiting all commercial fishing for marlin would not necessarily 
recover these populations, as they will continue to be caught and 
killed when commercial vessels are fishing for swordfish and tuna.
    We believe the only viable method of recovering marlin stocks in 
the Atlantic, in addition to strict landings limits, is through 
international time-area closures to longline and other indiscriminate 
fishing methods where marlin congregate to feed and spawn. The United 
States has begun addressing longline bycatch, closing known hot spots 
off Florida, Georgia and South Carolina, and in the Gulf of Mexico. 
According to preliminary results, they've been effective in reducing 
bycatch mortality of blue and white marlin.
    The U.S. has recently made substantial progress in bringing U.S. 
long-lining under control. We should continue to monitor the 
effectiveness of the time-area closures designed to minimize longline 
bycatch of billfish and other non-target species and make sure they 
remain in place and/or augment if necessary. We should also enhance the 
stellar, and mostly voluntary, conservation efforts of our recreational 
billfish fishermen, who release nearly every marlin they catch, by 
promoting wider use of circle hooks to bring the survival of released 
billfish as close to 100% as possible. While we can always do more for 
fish that are in such a depleted state, U.S. fishermen--recreational 
and commercial--have led by example in billfish conservation. It's now 
time to put the onus squarely on the fleets of other nations.
    The problem we are dealing with today is almost entirely foreign 
fleets fishing on the high seas, which account for over 95% of total 
billfish mortality. Unfortunately, as I said, current ICCAT 
regulations, which only limit landings, not bycatch, are inadequate to 
rebuild severely depleted populations of marlins and may not even be 
enough to stop the decline of white marlin, the most endangered of the 
billfishes.
    The only way to secure such closures is by working through 
agreement at ICCAT. ICCAT will conduct another billfish stock 
assessment in 2005, followed by new management measures. Therefore, the 
next three ICCAT meetings (2003, 2004, and 2005) will be critical to 
the future of white and blue marlin. Obtaining international longline 
closures at ICCAT will take dedicated and prolonged leadership from the 
U.S. delegation, since most other countries are opposed to placing 
restrictions on their longline fleets in order to conserve what they 
consider bycatch.
    The National Coalition for Marine Conservation urges Congress (and 
the Administration) to make marlin conservation the top priority at 
ICCAT through the 2005 meeting. We must make fishery officials from 
other countries understand how important billfish are to the U.S. 
public and the U.S. economy. We must be as aggressive in pursuing our 
national goals for billfish as we have been for bluefin tuna and 
swordfish.
    I repeat--the U.S. must give marlins the same level of attention 
and commitment of resources as have been devoted to bluefin tuna and 
swordfish at past meetings. Moreover, lingering and unresolved bluefin 
issues must not be allowed to deter the U.S. from its billfish 
conservation goals over the next three years. During the previous three 
decades, the concerns of the bluefin tuna (and to a lesser extent 
swordfish) industries have dominated our national ICCAT agenda. Over 
the next three years, that must change, because the marlins are the 
most severely depleted of the ICCAT-managed species and are still in 
decline; protecting these bycatch species will require particularly 
difficult decisions by our fellow ICCAT members; and, not least, the 
U.S. recreational fisheries that depend on healthy marlin stocks 
involve more fishermen and produce more economic benefit to the nation 
than the commercial bluefin and swordfish fisheries combined.

                             * * * * * * *

    In summary, successful international marlin conservation will 
require a combination of:
    <bullet>  Continued leadership by example. The U.S. must keep 
strong and effective U.S. billfish conservation measures intact, 
including time-area closures;
    <bullet>  A determined strategy. The U.S. must develop a strong 
conservation plan based on the lowest possible landings limits 
augmented by restrictions on long-lining in billfish bycatch ``hot 
spots.'' Just as importantly, we must be prepared each meeting, not 
just knowing what we want and being resolved to stand firm. We must 
also have an offensive aggressive strategy for getting what we want; 
and
    <bullet>  Aggressive pursuit of our billfish conservation agenda by 
the U.S. delegation. The U.S. must be united in purpose and unflagging 
in its determination to employ whatever means necessary to achieve its 
goals, including negotiations at the highest levels and trade 
sanctions, where appropriate.
    Thank you for holding this hearing, for your interest in improving 
conservation through ICCAT, and for considering our views and 
recommendations.
                                 ______
                                 
    Mr. Faleomavaega.

STATEMENT OF THE HONORABLE ENI F.H. FALEOMAVAEGA, A DELEGATE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. I would like to 
state for the record that I associate myself with the 
statements and the comments made earlier by you, Mr. Chairman, 
and also our Ranking Member of our Fisheries Subcommittee, Mr. 
Pallone, concerning the issue involving ICCAT.
    The seriousness of the problem goes beyond just to talk 
about the Commission and its activities, and what really 
concerns me is the fact that not only are we on a global scale 
in looking at things like this, conservation of fisheries and 
the fish stocks, but the fact that if it doesn't exist there is 
going to be overfishing in the Atlantic. Well, guess where they 
are going to be coming? They are going to come to my backyard. 
In fact, they are already doing that right now. 53 percent of 
the tuna caught in the world right now is in the Western and 
Central Pacific. Fishers from Europe now are already in the 
Pacific waters. Why? Because the situation in the Atlantic is 
getting worse and worse of being overfished.
    And the fact that--with all due respect, I have the highest 
respect for our members who are members with the ICCAT, but I 
think we have done enough talking. We have done enough 
rhetoric. And as I mentioned on the Floor yesterday, Mr. 
Chairman, maybe to get the attention of our member countries, 
we ought to extend our EEZ zone to a thousand miles so that 
perhaps we could at least do serious conservation measures of 
the fishery stock that are within the thousand-mile scale and 
not just 200 miles. Because the seriousness of the situation is 
that--and I say this in very broad terms--the population of the 
world is increasing, resources are decreasing, and fisheries is 
among them.
    For the life of me, Mr. Chairman, I don't know why we have 
to import $9 billion worth of fish from foreign countries, why 
within our own domestic resources we are not able to cultivate 
and to raise fish farms to provide for our own local 
consumption. That amazes me of the situation even in our own 
sense of priorities, Mr. Chairman, with all due respect. I 
support everything that we do with the land grant programs 
where the Congress appropriates almost a billion dollars a 
year, but when it comes to sea grant, which to me parallels all 
the things that we are trying to do with the fisheries programs 
and marine resources, biology, all of this, amazingly $70 
million nationally to provide for the national program, and it 
just boggles my mind, Mr. Chairman, that somehow in the overall 
situation, somehow the issue of fisheries just is not on the 
radar screen as far as our national priorities are concerned. 
And I am very concerned, not only maybe perhaps in a very 
selfish reason, because I happen to be right in the middle of 
the Pacific Ocean and seeing these resources depleted which 
affects not just where my district is, but it affects all 
States and Territories. So I sincerely hope that our delegation 
who is prepared to go to this meeting, that we come back with 
more teeth. We really--I am seriously supportive of Congressman 
Saxton's resolution.
    If we don't put sanctions, if we don't really bear on our 
fellow countries who are members of ICCAT to really come forth 
and be responsible, then we are just spinning our wheels for 
another 30 years. In the meantime, the depletion of fish 
applies and all this continues to go on. And my concerns is 
that if it is going to happen in the Atlantic, then sure as 
hell it is going to happen in the Pacific, and it is happening 
right now in the Pacific.
    So I want to thank you, Mr. Chairman, for calling this 
hearing, and I thank my Ranking Member, Mr. Pallone, also for 
tremendous support. And, again, gentlemen, we support your 
efforts in ICCAT, but I think rhetoric is enough is enough, and 
we need to really put more substance in terms if we are really 
serious about providing conservation measures, because it 
doesn't impact our economies. It impacts our recreational and 
our commercial fishing interests here, and I just think I am 
tired of writing papers and shuffling papers. Let's put some 
teeth in this.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you. Mr. Faleomavaega.
    The gentlelady from Guam.
    Ms. Bordallo. Thank you, Mr. Chairman. The only opening 
remarks I have is I would like to associate myself with my 
colleague here from American Samoa, Representative 
Faleomavaega. I too represent an area in the Pacific area, and 
we are concerned. So I have the very same concerns as he does, 
and, Mr. Chairman, I do have some questions later for the 
panel.
    Mr. Gilchrest. Yes. Thank you.
    Ms. Bordallo. Thank you.
    Mr. Gilchrest. And I think the four of us here and the rest 
of the Subcommittee realizes the difficulty that the witnesses 
have and have had in the past with ICCAT. So we want to send 
you off with all the support that you can get from us, not to 
bring a sledge hammer to the meeting but to buttress your 
negotiations with as much influence as the U.S. can bear on 
good fisheries management.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
                      from the State of New Jersey

    Good afternoon, Mr. Chairman and members of the Subcommittee. I am 
pleased to be here today to discuss a number of important fisheries 
conservation issues with respect to the upcoming 18th regular meeting 
of ICCAT. I would like to extend a warm welcome to all of our witnesses 
who took time out of their schedules to be with us today. I would like 
to especially thank Herb Moore, who is here testifying on behalf of the 
Recreational Fishing Alliance, with whom I have done a great deal of 
work over the years.
    House Concurrent Resolution 268, on which Mr. Gilchrest joined with 
me, as well as Mr. Faleomavaega and Mr. Pallone, was introduced on July 
25, 2003, and which passed out of this Committee and then was passed by 
the Full House on October 28, 2003.
    This resolution expresses the sense of Congress regarding the 
imposition of trade sanctions on nations that are undermining the 
effectiveness of conservation and management measures for Atlantic 
marlin adopted by the International Convention for the Conservation of 
Atlantic Tunas (ICCAT) and that are threatening the continued viability 
of United States commercial and recreational fisheries.
    Several hearings have been held prior to this one to examine these 
issues, and it is my hope we can examine them further and hopefully 
draw some conclusions as to how we ought to proceed. One of the biggest 
of these issues is that of compliance--on many levels. For example: as 
more than 90 percent of the world's fish are taken within countries' 
EEZs, how do we get compliance with international fishery regimes 
within countries' EEZs?
    Another part of the compliance issue is: since white marlin has 
been petitioned for listing under the U.S. Endangered Species Act and 
the problem is international fishing pressure, how do we get compliance 
on marlin conservation measures already in place?
    Finally, ICCAT was created to protect these species and to work 
toward attainable management goals to ensure their survival. One 
question which could be logically asked of this process is: what 
mechanisms are there within ICCAT to insure compliance with member 
nations?
    I have for a very long time been concerned with the dramatic drop 
in population of white marlin. Prior to the 1960s these species were 
healthy and thriving, just before the introduction of pelagic longline 
fishing in the Atlantic Ocean. Since this time, the species has 
steadily plummeted.
    The latest stock assessment I have seen indicates the total 
Atlantic stock population had declined to less than 12 percent of its 
maximum sustainable yield level; current fishing mortality was 
estimated to be at least seven times higher than the maximum 
sustainable level; over fishing had taken place for over three decades 
and the stock is less productive than previously estimated, with a 
maximum sustainable yield of less than 1300 metric tons. The bottom 
line--this species needs an immediate strong conservation measure or it 
may disappear forever.
    The passage out of the House of H. Con. Res. 268 represents an 
important step in the process of the international conservation of this 
dwindling species. I have spent a great deal of time on this issue, it 
is important we recognize the bottom line is pelagic longline fishing 
is an indiscriminate, irresponsible way of fishing. Though the U.S. 
longline fleet does contribute to the taking of this species, the 
majority of bycatch comes from the international fleets and this needs 
to be stopped.
    I was pleased that the Recreational Fishing Alliance (RFA) filed a 
petition with the U.S. Trade Representative last year, requesting the 
President take action against the European Union under Section 301 of 
the Trade Act of 1974, as amended. Though this petition was withdrawn, 
this issue remains a critical one.
    As a contracting nation, the U.S. has a history of compliance with 
ICCAT quotas and conservation measures. However, the European Union, 
particularly Spain and Portugal, has a history of serious non-
compliance with ICCAT. For example, the EU has consistently exceeded 
catch limits, quotas, and landing limits for Eastern Atlantic bluefin 
tuna and ignored rules for the protection of juvenile swordfish.
    In deciding that the white marlin does not warrant as threatened or 
endangered under the Endangered Species Act (ESA), the National Marine 
Fisheries Service said the U.S. accounts for approximately five percent 
of the total mortality of white marlin, while the rest is due to 
bycatch in international longline fisheries.
    The petition alleges that the EU has committed three unfair trade 
practices under Section 301 including: non-compliance with ICCAT catch 
limits, quotas, and landing limits for certain species of highly 
migratory fish, non-compliance with ICCAT rules for the protection of 
juvenile fish, and granting subsidies to its fishing industry through 
its Common Fisheries Policy in violation of the WTO Subsidies 
Agreement.
    The U.S. is a world leader on so many important and complex issues; 
I do not understand why the issue of fisheries management and 
enforcement of the regulations currently in place both domestically and 
internationally, seems impossible to accomplish. I look forward to 
working with all of you to find a solution to this grave problem. I 
fear if we do not, many of these species may simply disappear forever, 
which would be tragic.
    Thank you, and I look forward to hearing your testimony.
                                 ______
                                 
    Mr. Gilchrest. We will begin with Dr. Hogarth.

 STATEMENT OF DR. WILLIAM T. HOGARTH, ASSISTANT ADMINISTRATOR 
       FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE;

    Dr. Hogarth. Thank you, Mr. Chairman and members of the 
Subcommittee. It is nice to be here again to talk about the 
International Commission for the Conservation of Atlantic 
Tunas, ICCAT. We will be holding our 18th regular meeting of 
ICCAT in Dublin, Ireland, on November the 17th through the 
24th. I am Bill Hogarth, the Assistant Administrator for 
Fisheries at the National Oceanic and Atmospheric 
Administration, and I am also the U.S. Government Commissioner 
to ICCAT.
    On September 11th of this year, a member of my staff, John 
Dunnigan, testified before this body on the international 
fisheries issues. Many of the issues raised during this hearing 
concern ICCAT and remain germane to today's hearing. But rather 
than repeating earlier testimony, today I will focus more 
narrowly on what I see are the major issues for the upcoming 
ICCAT meeting.
    But before getting started in the specifics of the 2003 
ICCAT agenda, I would like to make a few general comments about 
the Commission. I am sincerely concerned about the future of 
ICCAT as a scientific and management body. This is based on the 
fact that I am concerned that the problems associated with 
having current data and data being submitted on catches to do 
the stock assessments to carry out the management are lacking, 
and unless this is corrected, I do not see how we can continue 
to make the decisions that the body has to make.
    Also the issue of harvest of undersized fish has to be 
addressed. There is a tremendous number of countries that are 
taking small fish, and this has to be stopped. And then we have 
to have much stronger compliance issues.
    So based on these comments, I will talk about what we see 
as the issues for the upcoming meeting of the Commission. And 
although there will be no species quotas as such that affect us 
on the agenda this year, there are quite a few issues that we 
think are extremely important for the future of the Commission.
    The meeting will begin with a working group on an 
integrated movement in tuna management. This is something the 
U.S. pushed for very hard at the last meeting, and we are very 
disappointed it has become almost 1 year or will be 1 year 
before we can get this meeting in place. The issues associated 
with integrated bluefin tuna are extremely important to the 
U.S.
    The data are clear that the East and West stocks of bluefin 
tuna overlap, and our current management approach does not 
adequately take this biological reality into consideration. 
ICCAT must find ways to appropriately integrate the management 
of these two interdependent stocks. We expect that the first 
working group meeting will set out a structure for future work 
which will include identifying and evaluating the various 
management options and identifying needed research. We 
understand that the Commission would also be considering a 
recommendation from its science body to invest in a 
comprehensive, coordinated bluefin tuna research program.
    Another critical issue facing ICCAT this year is the 
election of the Executive Secretary. There are currently five 
candidates that have made the short list. One of these is from 
the United States, and I consider the United States candidate, 
Dr. Joe Powers, to be the strongest candidate in the field. 
ICCAT needs a strong leader to ensure that the Secretary can 
meet the challenges associated with the increasing commission 
membership, rising number of conservation management decisions, 
compliance issues, and the dramatically expanded workload. I 
believe that the strong science and management credentials of 
Dr. Powers make him the perfect candidate for this position.
    The EC will be supporting their own candidate, and they 
made it very clear that due to the fact they catch the most 
fish and put the most money into the Commission, that they feel 
like they should have the Secretary. So this will be 
interesting.
    A third area of focus this year concerns data, and as I 
stated previously, the Commission is facing a very critical 
period. For some stocks data are inadequate or are reported so 
late that ICCAT's scientific body, the Standard Committee for 
Research and Statistics, cannot conduct robust stock 
assessments. Without the data, we cannot effectively manage 
ICCAT stocks.
    In addition, you may recall the United States has expressed 
concern in the past about the lax data collection reported by 
the EC. At the 2002 ICCAT meeting, the EC agreed to measures to 
improve their data collection programs. A couple weeks ago we 
met with our EC counterparts and discussed their progress. 
While they ensured us that the efforts were underway to improve 
the data situation, they have not provided us with the 
specifics. We will continue to seek the information over the 
coming weeks and months.
    This is an important issue, because it is the factor in a 
future decision concerning a request to certify the EC under 
the Pelly Amendment to the Fishermen's Protective Act. So, 
therefore, I will be also seeking specific information from the 
EC regarding conservation measures that have been adopted by 
ICCAT to reduce the harvest of undersized bluefin tuna.
    A fourth area of focus at ICCAT this year is compliance. 
Compliance issues have been and will continue to be one of the 
highest priority areas for the United States in ICCAT. Since it 
was included in my earlier testimony, I will not repeat all the 
gains we have made in the area today, but the bottom line is we 
believe that more has to be done.
    In closing, I think there will probably be other matters 
that arise at ICCAT, and each member will have a different 
perspective on what it wants to see done. This is the nature of 
a regional fisheries management organization. For ICCAT, this 
is especially true given the fact that the organization now has 
37 members, representing both developing and developed states. 
Despite these challenges, I believe progress can be made on the 
issues outlined above, and in that regard I look forward to the 
support of those Congressional Members and staff who will be 
attending with us on the delegation this year.
    I just want to remind you that in 2004, the United States 
will host the ICCAT meeting for the first time in history. It 
will be in New Orleans. In November you will hear more about 
it. But we think it is time to bring this body to the United 
States. It has so many issues that affect our fishermen and we 
would like to make it available to our fishermen.
    Thank you. I look forward to any questions.
    [The prepared statement of Dr. Hogarth follows:]

   Statement of William T. Hogarth, Ph.D., Assistant Administrator, 
  National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to present testimony on issues facing the International 
Commission for the Conservation of Atlantic Tunas (ICCAT) at its 
Eighteenth Regular Meeting, to be held in Dublin, Ireland, on November 
17-24, 2003. I am Dr. William T. Hogarth, Assistant Administrator for 
Fisheries at the National Oceanic and Atmospheric Administration 
(NOAA). I am also the U.S. Government Commissioner to ICCAT.
    On September 11th of this year, a member of my staff, John H. 
Dunnigan, testified before this body on international fisheries issues. 
Many of the issues raised during that hearing concerned ICCAT and are 
still germane. Rather than repeating earlier testimony, today I will 
focus more narrowly on what I see as the major issues for the upcoming 
ICCAT meeting.
    Before getting into the specifics of the 2003 ICCAT agenda, I would 
like to make a few general comments about the Commission. ICCAT's 
membership has grown dramatically in the last few years, due in large 
part to the successful efforts of the organization to address illegal, 
unreported, and unregulated fishing. The increased use of total 
allowable catches to control fisheries and the development of quota 
allocation arrangements have also created incentives for countries to 
join the Commission. The United States is encouraged by this growth 
since it indicates that ICCAT is expanding its influence over Atlantic 
highly migratory species fisheries. In addition to increased 
membership, the Commission has also been contending with a significant 
expansion of its annual workload. Currently, the Commission meets for 8 
days in the fall, in addition to convening a number of intersessional 
meetings throughout the year. To support this workload, ICCAT members 
must expend increasing amounts of time and energy. With this growth in 
membership and workload come greater challenges for the organization, 
and progress on some issues can be slower than we would like. On a more 
positive note, ICCAT will be considering ways to improve the 
functioning of its meetings this fall, and we have made a number of 
suggestions in this regard.
    For the upcoming 2003 ICCAT Regular Meeting, the Commission will 
once again have a full agenda. Stock issues include albacore, bigeye, 
and yellowfin tunas, and Mediterranean swordfish. Due to U.S. 
insistence last year, ICCAT will convene a working group on November 15 
to begin to seriously examine the issue of integrated bluefin tuna 
management. This is an extremely important issue to the U.S., since the 
data are clear that the east and west stocks of bluefin tuna overlap 
and our current management approach does not adequately take this 
biological reality into consideration. ICCAT must find ways to 
appropriately integrate the management of these two interdependent 
stocks. We expect that the first working group meeting will set out a 
structure for future work, which will include identifying and 
evaluating various management options and identifying needed research. 
We understand that the Commission will also be considering a 
recommendation from its science body to invest in a comprehensive, 
coordinated bluefin tuna research program that is intended to provide a 
basis for providing scientific advice on the risks and robustness of 
potential revised management procedures for bluefin tuna.
    Another critical issue facing ICCAT this year is the election of a 
new Executive Secretary. There are currently five candidates, one of 
which is from the United States. I consider the U.S. candidate, Dr. 
Joseph Powers, to be the strongest candidate in the field. ICCAT needs 
a strong leader to ensure that the Secretariat can meet the challenges 
associated with the increasing Commission membership, rising number of 
conservation and management decisions, and dramatically expanding 
workload. I believe that the strong scientific and management 
credentials of Dr. Powers make him the perfect candidate for this 
position. The EC will be supporting their own candidate and they have 
made it known that they feel they should hold other positions of power 
within the Commission. While we feel that the EC certainly has an 
important role to play in ICCAT, we strongly believe that there must be 
equity within the Commission with regards to its administrative and 
political leadership.
    A third area of focus this year concerns data. The Commission is 
facing a critical period. For some stocks, data are so inadequate or 
are reported so late that ICCAT's science body, the Standing Committee 
for Research and Statistics (SCRS), cannot conduct robust stock 
assessments. To make matters worse, bluefin tuna farming has made data 
collection and verification even more difficult for that species. 
Without good data we cannot effectively manage ICCAT stocks. The 
obligation to collect and report data is no different than the 
obligation to abide by a conservation measure. If countries are not 
reporting, intentionally misreporting, or reporting so late that the 
SCRS cannot do its job, ICCAT should deal with the issue as a 
compliance matter. This approach would be possible, since the 
allocation criteria developed by ICCAT in 2001 already link quota 
access to data reporting. Regarding farming, we will support efforts to 
ensure that there is a proper accounting of the fish entering and 
leaving these farming operations. ICCAT recently held a workshop to 
identify data collection and reporting problems and solutions, which 
did help to advance the debate. We are considering ways to address data 
issues in ICCAT, including those discussed at the recent workshop.
    In addition, you might recall that the United States has expressed 
concern in the past about lax data collection and reporting by the EC. 
At the 2002 ICCAT meeting, the EC agreed to measures to improve their 
data collection programs. Two weeks ago, we met with our EC 
counterparts and discussed their progress on this matter. While they 
assured us that efforts were underway to improve the data situation, 
they were not able to provide specifics. I will continue to seek that 
information over the coming weeks and months. This is an important 
issue that will factor into a future decision concerning a request to 
certify the EC under the Pelly Amendment to the Fishermen's Protective 
Act. Similarly, I will also be seeking specific information from the EC 
regarding conservation measures that have been adopted by ICCAT to 
reduce that harvest of undersized bluefin tuna. At the urging of the 
United States, ICCAT adopted bluefin tuna measures last year to 
increase the absolute minimum size in the Mediterranean from 3.2 kg to 
4.8 kg and, for the Atlantic and Mediterranean, reducing the number of 
fish that can be retained below 6.4 kg. ICCAT also is requiring the 
development of plans setting out how reductions in the harvest of 
undersized bluefin tuna in the Mediterranean will be achieved.
    A fourth area of focus at ICCAT this year is compliance. Compliance 
issues have been, and will continue to be, one of the highest priority 
areas for the United States at ICCAT. Since it is included in earlier 
testimony, I will not repeat all the gains we have made in this area to 
date. The bottom line is that we believe more needs to be done. In 
addition to improving the implementation of existing measures, the 
overall compliance regime process should be streamlined and the scope 
broadened to improve the use of our trade and quota penalty tools. For 
example, the existing quota penalty provisions should be expanded to 
cover all species under quantitative harvest restriction, including 
marlins. In the same vein, we support efforts to improve ICCAT's 
monitoring and control regime. Effective monitoring and control 
measures are essential for implementation of ICCAT's rules. Proposals 
for establishing a vessel monitoring system program and spelling out 
flag state duties are pending before the Commission this year. Other 
monitoring and control matters will also be addressed in future years.
    The other two U.S. Commissioners and I recently met with our 
European, Japanese, and Canadian counterparts to exchange views on the 
issues facing ICCAT this year. In addition, earlier this week we met 
with the Advisory Committee to the U.S. Section to ICCAT to obtain 
their advice on the matters I have raised here. These are critical 
steps in the U.S. position development process. The timing of this 
hearing is such that the final U.S. positions have not yet been set, 
but I have tried to indicate our general views in the major areas of 
discussion for the upcoming meeting. Undoubtedly, there will be other 
matters that arise at ICCAT, and each ICCAT member will have a 
different perspective on what is important. This is the nature of 
regional fisheries management organizations. For ICCAT, this is starkly 
true given the fact that the organization now has 37 members 
representing both developing and developed states. Despite these 
challenges, I believe progress can be made on the issues outlined 
above. In that regard, I look forward to the support of those 
Congressional members and staff who will be joining the U.S. delegation 
in Ireland this year.
    Thank you, Mr. Chairman, for this opportunity to review the issues 
that will be facing ICCAT in November 2003. This concludes my 
testimony, and I would be pleased to respond to any questions that 
Members of this Subcommittee may have. Thank you very much.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Hogarth.
    There is a tiny little fishing village on the Eastern Shore 
of Maryland called Crisfield, which if New Orleans doesn't work 
out--
    Dr. Hogarth. I am not sure that Crisfield could handle all 
those people.
    Mr. Gilchrest. Oh, yeah, we could. Absolutely.
    Mr. Delaney.

                STATEMENT OF GLENN R. DELANEY, 
               U.S. ICCAT COMMERCIAL COMMISSIONER

    Mr. Delaney. Thank you, Mr. Chairman. Good afternoon, 
members of the Committee. Thank you for holding this hearing, 
and I am especially grateful for the opportunity to testify. 
Hearings like this one, as well as H. Con. Res. 268, are 
extremely helpful to bring focus to the ICCAT issues that we 
face today.
    Mr. Chairman, I have had the privilege of serving as 
Commissioner since 1995. The Dublin meeting will be my ninth 
ICCAT meeting serving as Commissioner. But I first became 
involved with ICCAT in 1982 as a fisheries staffer on the old 
Merchant Marine and Fisheries Committee, and I have been 
involved in some capacity ever since.
    With this experience in mind, I would just first like to 
put the U.S. 2003 agenda into context. The ICCAT Convention was 
signed in 1966, and it wasn't until 1969 that they really had 
their first meeting. In the 1970s and 1980s, these were 
essentially the dark ages of ICCAT. What few decisions were 
made were made mostly for political reasons, and some of those 
were very bad decisions, such as the bluefin tuna management 
regime for which we continue to pay the price today. Status quo 
was the mantra of ICCAT, and I have to admit the U.S. 
delegation shared in that view.
    The U.S. did not really get serious about ICCAT until 
literally about 1994, when the leadership of the U.S. ICCAT 
delegation changed dramatically.
    Attached to my testimony is a list of the 122 active ICCAT 
conservation measures now on the books. About 90 percent of 
those were adopted since the U.S. leadership changed in 1994. 
The point is serious U.S. participation at ICCAT began only 
about 10 years ago. This is an important context in considering 
of where and why we are where we are today.
    The good news is that I think the U.S. is and has been for 
the past decade focused on the correct objectives. Our first 
priority had to be to fill the void by establishing a set of 
conservation and management rules for each of the many stocks 
and fisheries. In the past few years we have made the necessary 
transition to really zero in on the compliance and enforcement 
of those conservation and management rules.
    Today our primary focus is on the aggressive application of 
market controls and trade measures to put real teeth behind our 
comprehensive regime. Having a business background, I tend to 
advocate a business approach to ICCAT compliance. There can be 
tradeoffs to this, but I believe that measures that take money 
away from ICCAT violators are the measures that will get their 
attention. And Lord knows, we need their attention.
    The bad news is I don't think we, the Commissioners, can do 
this ourselves. We really need help.
    Mr. Chairman, ICCAT is an incredibly complex challenge. At 
any given time there are literally thousands of vessels of all 
sizes and gear types fishing for 30 different ICCAT species 
divided up into many separate stocks in a convention area that 
covers over 20 million square miles of the Atlantic Ocean. 
These fishing vessels are operated by as many as 50 or more 
ICCAT nations from 5 different continents ranging from the 
poorest and most politically unstable to the wealthiest and 
most technologically sophisticated.
    If I can say so myself, I believe the U.S. Commissioners 
and our outstanding ICCAT team can certainly handle the 
conservation and management end of things, even as complex as 
they are. However, when ICCAT compliance is put into the proper 
economic and geopolitical terms, that is when I believe we need 
much higher level discussions between our governments.
    The kind of political muscle we need cannot be applied 
effectively at the ICCAT level. To be clear, I am not 
suggesting ICCAT does not have a fundamental scientific and 
environmental mission to conserve and manage highly migratory 
species. It does. However, it is much more than that.
    Instead of viewing ICCAT only as a scientific and 
environmental forum, it would be helpful for high-level U.S. 
economic policymakers to understand and act on the substantial 
economic implications ICCAT decisions have on thousands of U.S. 
small businesses accounting for a vast amount of economic 
activity which many, many coastal communities depend on from 
Maine to Texas. Noncompliance by other nations really hits us 
in our own wallets in the form of unfair competition from 
illegal imports as well as in reduced access of our fishermen 
to fish stocks damaged by foreign overfishing. If we can 
succeed in getting the right people in the U.S. Government to 
see it that way, I think we will be on our way toward solving 
the toughest issues at ICCAT.
    Mr. Chairman, I have included a number of very specific 
issues and recommendations for your consideration regarding our 
ICCAT agenda this year. Many of these focus on the market 
controls and trade measures I mentioned, but they also include 
some very important issues regarding white marlin, bluefin tuna 
and swordfish specifically. I would be pleased to elaborate of 
course on these key issues in our ensuing discussion.
    Again, thank you very much for your time and attention to 
this matter by holding this hearing and for moving forward with 
H. Con. Res. 268.
    Mr. Chairman, I just wanted to make another special note, 
if I might. I want to thank especially those Members of 
Congress and their staffs that may be planning and hopefully 
are able to attend the ICCAT meeting next month, and in that 
respect I would like to make what I hope is a helpful 
suggestion and perhaps one way to maximize the impact of your 
visit, which is very important to us, is to request that our 
U.S. mission in Brussels, where the EC is headquartered, 
arrange for you perhaps to meet with some of your fishery 
counterparts from the European Commission, since we will be 
meeting in an EC member nation in Ireland. That way you could 
help us to deliver the strongest possible message above the 
heads of the EC ICCAT Commissioner and his delegation. It might 
be a good opportunity. There perhaps could be some messages and 
receptivity to our messages at a higher level than the EC 
Commissioner.
    Thank you again, Mr. Chairman, members of the Committee. I 
appreciate the opportunity.
    [The prepared statement of Mr. Delaney follows:]

      Statement of Glenn Roger Delaney, U.S. Commissioner to ICCAT

    Mr. Chairman, Members of the Subcommittee, thank you for holding 
this timely and important hearing. And, thank you for this opportunity 
to provide the following testimony regarding ICCAT issues that are 
important to the 2003 annual meeting.
    I first became involved with ICCAT in 1982 as a staffer on the 
Merchant Marine & Fisheries Committee, Subcommittee on Fisheries & 
Wildlife Conservation and the Environment. In the late 1980s and early 
1990s, I participated as an ICCAT industry advisor, and for the past 
nine years I have served as one of the three U.S. Commissioners.
    Given this background, I would first like to provide a brief 
historical perspective of how and why we are where we are at ICCAT 
today. I think this would be helpful to put the 2003 U.S. ICCAT agenda 
in the proper context. Then, I will provide some very specific 
recommendations for inclusion on the U.S. agenda of ICCAT priorities 
and objectives at the 2003 meeting.
Historical Context of 2003 Meeting
    Since 1982, ICCAT has gone through a remarkable transformation. 
During the 1980s, it would not be unfair to characterize ICCAT as being 
in the Stone Age of fisheries conservation and management. It was 
during that time such terrible decisions as drawing an arbitrary line 
down the middle of the Atlantic to divide the bluefin tuna population 
into 2 separate stocks and management regimes were made. This placed 
U.S. bluefin tuna fishermen under an overly conservative and rigid 
management regime while nations fishing in the eastern Atlantic were 
effectively allowed to run amok. This was done more for political 
expediency than good conservation or smart science (bluefin certainly 
do not respect an imaginary line drawn across the ocean). Today, we 
still suffer the conservation, political and economic consequences of 
that decision as we struggle with serious conservation and compliance 
issues in the Mediterranean and an inequitable situation for U.S. 
fishermen.
    Compliance and enforcement during those years were essentially 
``non-issues'' because, frankly, there were few rules to comply with or 
to enforce. Year after year, my impression of the basic result of the 
annual ICCAT meeting was for nations to report your catches, proclaim 
``status quo'' for the almost nonexistent management regime, and go 
home. Frankly, the U.S. didn't appear to do much to change or improve 
that course.
    As stocks began to suffer, U.S. industry and other constituencies 
did begin pushing a more progressive and conservation-oriented agenda 
in the late 1980s and early 1990s. However, it wasn't until 1994, when 
the leadership of the U.S. ICCAT Delegation changed dramatically, that 
a serious U.S. effort to reform ICCAT became possible.
    Since then, the U.S. has asserted itself as an effective leader and 
voice of conservation at ICCAT. We began a deliberate and stepwise 
campaign to put in place the many basic rules for conserving the 
stocks, managing the fisheries and collecting the data necessary to 
properly assess stock status and measure the results of the management 
regime. We also moved quickly to put rebuilding plans in place for some 
of the stocks of greatest interest to the U.S., such as swordfish, 
billfish and bluefin tuna.
    The U.S. succeeded in pushing through a comprehensive regime of 
conservation, management, rebuilding, scientific data collection, quota 
allocation, compliance, monitoring, enforcement and trade measures now 
adopted by ICCAT. A compendium of these many ICCAT measures now on the 
books is attached to my testimony. (see Attachment 1) Today ICCAT is 
arguably the most progressive international fishery conservation and 
management forum in the world--at least on paper.
    That is not to say we haven't achieved some remarkably tangible 
results. For example the rapid rebuilding of the north Atlantic 
swordfish stock was an extraordinary conservation achievement. But, the 
truth is that the more rules we put on paper, it seems the more these 
rules are broken by many of the nearly 50 nations represented in the 
ICCAT process. It is becoming a very serious problem with no easy 
solutions.
Compliance Violations
    Violations fall across the entire spectrum of conservation 
measures--from quota overages and the excessive harvest of juvenile 
swordfish and tunas to blatant failure to submit even the most basic 
catch data vital to scientific stock assessments. Serious violations 
also fall across the full spectrum of ICCAT nations--from the least 
developed and most politically unstable to the richest and most 
technologically advanced. There follow just two examples among the more 
egregious problem areas, but the actual list is much, much longer.
    The bluefin tuna situation in the eastern Atlantic is out of 
control. The relatively recent development of pen-raising technology 
for rapidly growing and fattening bluefin tuna for the high-valued 
sashimi market has created a black hole in the ICCAT management system. 
We will have to wait until November to see what the official numbers 
are, but we are hearing credible reports that bluefin landings in the 
eastern Atlantic may be as much as 50,000 metric tons--substantially 
above the ICCAT quota and about twice the level recommended by the 
scientists. Much of this fish is going into farming pens and there are 
serious questions about the correct reporting and accounting of this 
harvest. The European Union is the major player in that situation, but 
the reality is that nearly all of the nations bordering the 
Mediterranean contribute to the chaos, particularly those on the north 
African coast.
    Another tremendous concern is the performance of Taiwan. Fishing 
vessel operators based in Taiwan, but hidden by many layers of paper 
companies, have been the source of a fleet of pirate large-scale 
pelagic longline vessels using flags of convenience to operate in the 
Atlantic and throughout the world. These vessels are often referred to 
in international circles as the ``IUU fleet'' (Illegal Unreported and 
Unregulated).
    Only due to strong pushing by the Japanese government, the 
Taiwanese government has responded half-heartedly. In addition, 
Taiwanese fishing companies have now deliberately built a fleet of 
vessels that fall just under the 24 meter minimum length for 
application of most ICCAT measures. These, 23.9 meter vessels have 
operated extensively in the Caribbean decimating shark stocks and 
causing serious billfish bycatch problems. Even those Taiwanese vessels 
that actually do fly the Taiwan flag and are large enough to fall under 
ICCAT jurisdiction are causing serious compliance problems with 
swordfish and bigeye tuna. The government of Taiwan either lacks the 
means or will to control this situation.
Current U.S. Focus at ICCAT
    I think the U.S. continues to be on the right track. We are 
following through on the necessary progression of first putting into 
place the basic conservation rules for ICCAT and now we are pursuing a 
very deliberate process of ratcheting down on compliance and 
enforcement. We must put teeth behind those rules, primarily through 
increasing the scope and effectiveness of market controls and trade 
measures. In this regard I believe the U.S. is focused on the proper 
issues, and we are being just as aggressive in pursuing the full range 
of compliance and enforcement measures as we were in establishing the 
basic conservation and management rules in the first place. A valid 
question, however, is whether the U.S. Commissioners alone can be 
successful.
    Market controls and trade measures are the most effective response 
to compliance problems because they take money away from people when 
they behave badly. It's a great way to get a non-compliant nation's 
attention. But, it takes great strength and a smart plan to achieve. 
Market controls and trade measures, as well as more effective 
conservation and management regimes for bluefin tuna and billfish, will 
continue to be among the most difficult to negotiate. While I don't 
think there is cause for panic, I think all of the Commissioners would 
agree that we could definitely use some high-level assistance in this 
current ICCAT era. The U.S. Commissioners will need the strong backing 
from high levels of U.S. Government including Congress to pursue these 
objectives.
    I have no doubt that we have such backing from Congress and 
especially the members of this Committee. Such efforts as House 
Concurrent Resolution 268 can be particularly helpful in demonstrating 
to our ICCAT adversaries a sense of U.S. Government purpose, resolve 
and solidarity behind the Commissioner's efforts at ICCAT. That 
Resolution as well as this hearing also help to raise the issue to a 
higher level of attention within our own Administration. We are 
beginning to gain some serious attention at the highest level of the 
Department of Commerce thanks to your efforts.
U.S. ICCAT Agenda for 2003
    Although our U.S. position has yet to be formally decided, there 
follows several of the more important issues I hope and expect will be 
on the U.S. agenda of priorities for the 2003 meeting. Please note that 
I have also identified areas where I think Congress can assist our 
efforts and that some of these would require a financial commitment.
White Marlin
    In the case of white marlin, a picture is worth a thousand words. 
The chart that follows is an excerpt taken from the 2002 ICCAT white 
marlin scientific stock assessment and shows the distribution of catch 
for the decade 1990-1999 across the Atlantic. (A complete chart showing 
the same information for each decade since 1950 is attached to this 
testimony. See Attachment 2.)


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    As you can see, the vast majority of white marlin mortality occurs 
in areas south of the equator, especially off the southeastern coast of 
Brazil. (The distribution of blue marlin catch is very similar. See 
Attachment 3.) This has been a consistent occurrence since the 1960s. 
As extensive U.S. tagging efforts have confirmed, particularly those 
supported by The Billfish Foundation, these fish are highly migratory. 
Excessive mortality off the coast of South America will have a direct 
impact on the abundance of white marlin (and blue marlin) off the U.S. 
east coast.
    Because white marlin is generally a bycatch species in directed 
fisheries for tuna and swordfish, the solution to this problem is not 
so simple. ICCAT took the first step by adopting a U.S. proposal 
designed to substantially reduce both white and blue marlin mortality 
through requirements to reduce landings and increase the release of 
fish that are alive when brought to the boat.
    However, these measures alone are not likely to be sufficient to 
reduce fishing mortality to levels that can rebuild this stock. And, 
compliance has been a problem. I anticipate that the data we receive at 
ICCAT this year will indicate that Brazil, and perhaps Venezuela, will 
confirm their violation of the ICCAT marlin landing reduction 
requirements. Given the status of white marlin, much more will have to 
be done. There follow two recommendations for U.S. initiative to 
address this situation.
    1) Strengthen enforcement of white marlin bycatch limits. ICCAT 
must authorize market controls--such as the suspension of eligibility 
of the violating nation's vessels to market tuna and swordfish in other 
ICCAT nations. The key is to authorize market or trade sanctions 
against ICCAT species other than marlin, because marlin are not 
regularly exported to other ICCAT nations and are consumed within the 
harvesting nations. (The U.S. already prohibits sale of Atlantic marlin 
in the U.S.)
    2) U.S. Cooperative Research Program to reduce white marlin 
bycatch. In order to reduce marlin mortality beyond the current ICCAT 
live release and landing measures, we will have to do better than 
simply tell other nations they have to stop or substantially reduce 
their directed fishing for tuna and swordfish. I do not believe that 
would be a realistic goal.
    If we expect to achieve any further meaningful reductions in marlin 
mortality, I think the reality is that the United States must take the 
initiative to develop alternative pelagic longline fishing gear and 
methods and then export these solutions to other ICCAT nations. The 
truth is that no other nation is likely to take this initiative or make 
the investment and, frankly, the U.S. has by far the greatest social 
and economic interests in doing so. We are also faced with the 
continued threat of an Endangered Species Act listing, which would have 
catastrophic impacts on U.S. commercial and recreational fisheries. I 
believe this research program is a very important financial commitment 
for Congress to consider.
    The first phase of developing such solutions could be achieved 
through an NMFS cooperative research program with U.S. longline fishing 
vessels. NMFS and the U.S. pelagic longline fishery has established a 
very positive cooperative research relationship through their 
phenomenally successful experimental fishery to substantially reduce 
bycatch and nearly eliminate bycatch mortality of sea turtles on the 
Grand Banks (Northeast Distant [NED] statistical area).
    As we learned from the Grand Banks project, the use of special 
baits and circle hooks, specifically designed to reduce bycatch and 
bycatch mortality of whatever the species in question is, holds great 
promise. The use of hook timers and time-depth recorders, used so 
successfully in the Grand Banks research to understand sea turtle 
behavior, is also likely to provide extremely valuable information 
regarding marlin behavior and provide clues for how to reduce marlin 
interactions with longline gear.
    It would seem that the second phase of exporting solutions that 
reduce marlin bycatch and bycatch mortality to foreign fisheries where 
the preponderance of marlin bycatch mortality occurs should be 
initiated in the areas off of Brazil where marlin bycatch has been so 
highly concentrated for so many years. This is something we can 
initiate through ICCAT. Of course, the same solutions should be 
implemented for U.S. longline fisheries as appropriate.
Specific ICCAT Trade Measures and Market Controls
    I recommend that the U.S. pursue the following objectives at the 
2003 ICCAT meeting:
    General: Harmonize the hodgepodge of ICCAT trade and market control 
measures adopted to date into one overarching program that expands 
these measures to have the broadest possible coverage of fish stocks 
harvested by member and non-member nations.
    This initiative is already underway at ICCAT but much more work and 
strong U.S. leadership will be required to get the job done. Notably, 
the current drafts of this Supplemental Trade Measures proposal we have 
been working on with the EC, Japan and Canada over the past year 
include the crucial multilateral authority for ICCAT importing nations 
to enforce ICCAT bycatch controls (such as for marlin) through import 
restrictions on other, non-bycatch (tuna and swordfish) exports.
    Tuna Farming: Expand the scope of the ICCAT ``positive list'' 
market control program to include the explosion of poorly regulated 
bluefin tuna farms in the Mediterranean. Currently this program, (which 
was a U.S. initiative), establishes a formal registry of ICCAT vessels 
and enables member nations to prohibit the importation of fish landed 
by any vessel not on that list.
    The U.S. should lead an effort to expand the application of the 
ICCAT ``positive list'' market controls to bluefin tuna farming pens.
    Billfish: As explained previously, the challenge with white marlin 
and blue marlin is that in most nations' fisheries it is a bycatch. 
(This may or may not be the case in Ghana, where blue marlin 
consumption and landings are the highest on record.) Billfish bycatch 
is generally not exported to major market nations like the U.S., Japan 
and EC where effective market controls can be exerted.
    The U.S. should lead an effort to enforce current ICCAT marlin 
bycatch management measures. I believe immediate action should be 
considered for some nations through the suspension of a violating 
nation's ICCAT ``positive list'' status if that nation's exports 
include species for which ICCAT has a ``statistical document'' program 
(bluefin, swordfish and bigeye tuna).
    Alternatively, if adopted, the Supplemental Trade Measures proposal 
designed to harmonize and expand the scope of existing ICCAT trade 
measures for both member and non-member nations now under consideration 
by ICCAT potentially provides a much broader coverage of the situation. 
As mentioned earlier in my testimony, this proposal includes provisions 
to restrict non-marlin bycatch exports (such as tuna and swordfish) 
until such time as the violating nation comes into compliance. This 
approach may take another year before it can be applied, but it would 
effectively address the Ghana blue marlin problem by targeting their 
canned tuna exports for control.
    Scientific Data: Incredibly, it appears that some ICCAT member 
nations are deliberately withholding catch data from ICCAT on key 
fisheries, such as bluefin tuna. I suspect this has been done in order 
to escape scrutiny and enforcement of compliance measures. This is 
about as low as it gets. ICCAT data is fundamental to our scientific 
ability to assess the status of the stocks and, therefore, to develop 
or adjust management measures to achieve the goals or rebuilding stocks 
and of maximizing the yield from each stock.
    The U.S. should lead an effort for ICCAT to adopt a provision that 
has the effect of automatically suspending ``positive list'' status for 
the vessels of any nation that fails to submit timely data to ICCAT.
    U.S. Office of Fishery Trade Monitoring and Enforcement: The future 
of ICCAT, and presumably other international fishery management 
organizations, is the aggressive adoption and implementation of a 
comprehensive regime of trade measures and market controls necessary to 
effectively enforce the conservation and management program. To be 
effective, such trade measures and market controls must be very closely 
monitored and enforced by U.S. Government personnel. This is not at all 
intended to be a criticism, but it has been my observation that the 
NMFS personnel responsible for this activity are already struggling to 
keep up with what ICCAT has on the books today. In anticipation that 
this activity and workload will increase substantially as ICCAT fully 
develops this regime, and given that an effective U.S. capability to 
monitor and enforce ICCAT trade and market control measures, I believe 
Congress and the Administration should seriously consider the 
establishment of a new office devoted entirely to this mission and this 
would likely require a financial investment by Congress.
    Limit Exports to ICCAT Quotas: Although certainly not a new idea, 
there has been increased interest in developing ICCAT multilateral 
authority for member nations to limit the total amount of their imports 
of a specific ICCAT stock to the amount of the exporting nation's catch 
quota.
    While on the surface it sounds simple enough, in actuality the 
implementation would be very tricky and this is why the concept has not 
gained widespread support in the past. One very big problem is that 
ICCAT completely lacks any mechanism or resources to keep track of 
real-time exports of individual ICCAT stocks for each exporting nation. 
Exporting nations generally export ICCAT species to multiple 
destinations. The problem is how ICCAT and importing nations can 
determine when a nation's total exports to all nations have reached its 
total ICCAT catch quota and, therefore, when it would be appropriate 
and effective for individual importing nations to prevent further 
imports of that stock from that nation. Absent this information, it 
seems unlikely that this approach will be effective. Nevertheless, 
because management and compliance problems have become so dire it is 
probably time to at least revisit this approach.
    The U.S. should explore the feasibility of developing an effective 
mechanism for providing authority to ICCAT importing nations to limit 
their imports of an ICCAT stock to each exporting nation's total ICCAT 
quota.
Unilateral Trade Measures
    Our efforts at ICCAT are necessarily delimited by recognized 
principles of international trade law requiring multilateral authority 
for trade restrictive measures. I believe this has also been the 
consistent view of each Administration I have served under as 
Commissioner.
    Nevertheless, as a private citizen I am certainly NOT averse to 
discussing some unilateral approaches which may strengthen our hands at 
ICCAT. It is a very sensitive issue--both within domestic law and 
policy circles--as well as at ICCAT. If U.S. unilateral trade measures 
are to be applied against ICCAT nations, this must be very well 
conceived and timed.
    I think the Committee is probably already far more familiar than I 
with the Pelly Act and Section 301 of the Trade Act of 1974, both of 
which are under current consideration by the Administration for 
application to ICCAT.
    However, I would also like to reinforce the Committee's attention 
to the trade measures also on the books within the Atlantic Tunas 
Convention Act (ACTA). This statute is the ``organic Act'' for U.S. 
implementation of the ICCAT Convention.
    The ACTA authorizes the Secretary of Commerce to prohibit the entry 
into the United States of any ICCAT-managed species and taken from the 
ICCAT Convention area (Atlantic Ocean / Mediterranean) in a manner 
which would diminish the effectiveness of ICCAT's conservation program. 
The Act authorizes the Secretary to prohibit the importation of ICCAT 
species other than the species for which violations occur. This is 
central to the ability to effectively enforce bycatch requirements for 
species that only enter international trade in very limited numbers 
such as white and blue marlin.
    I am grateful to the authors, Congressmen Gilchrest and Saxton, 
that this authority is a particular focus of H. Con. Res. 268. The 
legislative amendments that created this authority in the 1990s was an 
initiative and priority of the U.S. fishing industry. Unfortunately, it 
has been my very frustrating experience that the Administration (NMFS) 
never embraced this authority as the effective tool it could have been. 
Specifically, NOAA/NMFS attorneys interpreted the provisions to require 
automatic sanctions if any nation (or its vessels) was so much as 
``identified'' as diminishing the effectiveness of ICCAT.
    To the contrary, I would argue that the ``consultations'' 
provisions of these ACTA trade measures deliberately provide an 
opportunity for the U.S. to enter into a bilateral negotiation with a 
violating ICCAT nation from a position of great strength, and to 
achieve a constructive, mutually acceptable resolution of the situation 
without the need to actually apply a trade sanction.
    I hope that the Committee will strongly encourage the Agency to 
revisit its interpretation of this statute and reconsider its 
application to any number of situations in which ICCAT member nations 
and non-member nations are clearly, repeatedly and, in some cases, 
deliberately undermining the effectiveness of ICCAT. With the proper 
interpretation of its authority, the Administration could move forward 
immediately in applying this tool without the need for any further 
legislative action.
Bluefin Tuna
    As I mentioned earlier in my testimony, the arbitrary line drawn 
down the middle of the Atlantic Ocean in 1982 split the management of 
bluefin tuna into two very different programs with dire consequences 
for U.S. fishermen and the resource. In the western Atlantic area, the 
U.S., Canada and Japan have operated for more than 20 years under a 
very conservative quota and compliance has been excellent.
    In stark contrast, the eastern Atlantic area, member nations of the 
European Union and other nations bordering the Mediterranean has 
operated under a very liberal quota regime that is literally ten times 
larger than the western quota. Still, overall compliance by eastern 
Atlantic bluefin fishing nations has been poor. The situation is very 
complex and not consistent among nations--we have cases of some nations 
overfishing their quotas, some declaring autonomous quotas outside 
ICCAT management, and some choosing not to report their catches at all. 
The situation is also not static--each year we are presented with a 
widely different mix of compliance problems among those nations.
    As you may know, the problem is exacerbated by the recent 
definitive scientific conclusions that even if there are two separate, 
reproductively distinct stocks originating in the Mediterranean and in 
the Western Atlantic, the spatial and temporal degree of mixing of 
these two stocks is so great that separate stock management cannot be 
effective. This landmark U.S. scientific research employing state-of-
the-art satellite tagging technologies and funded directly by Congress 
has turned bluefin tuna science on its head. ICCAT must now answer the 
very difficult question of how to effectively conserve, manage and 
allocate bluefin tuna across the Atlantic as if it were one stock.
    To answer this question, in 2002 the U.S. initiated the 
establishment of the ICCAT Working Group on Integrated and Coordinated 
Atlantic Bluefin Tuna Management Strategies. This Working Group is 
unique in that it will bring both scientists and managers together. 
Although the first formal meeting of the Working Group is scheduled for 
November 15 in Dublin (just prior to the ICCAT meeting), U.S. and other 
ICCAT scientists have already met to outline the scientific research 
program that will be essential to support this huge endeavor. My 
understanding is that this program will need a budget of $2-3 million 
per year for several years.
    The key point is that U.S. fishermen have a great stake in how 
fisheries are managed in the eastern Atlantic. Gross overfishing and 
noncompliance in the eastern Atlantic bluefin tuna fisheries have a 
direct, negative impact on U.S. fishermen as well as U.S. efforts to 
properly manage and rebuild this fishery. The U.S. must address itself 
to solving this problem for both parochial and global conservation and 
economic reasons.
    Unfortunately, the reality is that we will have to drag along 
kicking and screaming those nations that now fish in the eastern 
Atlantic. For obvious economic reasons, they do not want this Working 
Group or this scientific research to succeed in stopping the out-of-
control situation they now enjoy in eastern Atlantic bluefin fisheries. 
Therefore, I believe it will be necessary for the U.S. to again step up 
to the plate to fund the scientific research crucial to support the 
Working Group efforts. This is a very important financial commitment 
for Congress to consider.
    The origins of the eastern Atlantic bluefin tuna management 
problems are incredibly complex and varied. They include the 
geopolitics of the region, the ineffectiveness of the EC bureaucracy to 
control member nations, the wide range of the relative state of 
economic development and political stability within individual nations, 
and even cultural issues, as in the case of the large harvest of 
juvenile bluefin tuna in the Mediterranean that supplies the region's 
traditional cuisine. Overlying this complex situation is the fact that 
the Mediterranean is perhaps the most important spawning area for 
bluefin tuna in the Atlantic.
    Although the U.S. has focused a great deal of its attention on the 
EC, it is not so simple to say this is just an EC problem. Nations that 
participate in these fisheries range from such nations as France, Spain 
and Italy to Libya, Tunisia, Malta, Turkey and Morocco. Nevertheless, 
my strong personal belief is that the EC must become the leader of a 
regional solution to the problem. Other, less-developed nations in the 
region, are likely to follow the example of the EC--good or bad. The 
U.S. and other concerned ICCAT nations must continue to put great 
pressure--at the ICCAT level and at much higher levels of the U.S. 
Government--on the EC to adopt the conservation ethic and leadership 
role necessary to effect a meaningful change in the Mediterranean 
bluefin fisheries.
    I must be frank, however. I don't know what a single, specific 
solution to the eastern Atlantic bluefin problem is. There is no silver 
bullet--at least I can't see one. We have invested enormous efforts in 
attacking this on all fronts at the ICCAT level year after year. This 
year will certainly be no exception and it will consume a huge part of 
our time and attention.
    And, while it is true that each year at ICCAT we chip away at the 
problem, it is also true that each year we are confronted and 
frustrated by a different and often deteriorating set of circumstances. 
We need real help on this one. I, and others in the U.S. ICCAT 
community have been seeking bilateral interventions from the highest 
levels of our government with such problem areas as the EC, and I think 
we are beginning to receive it. Congressional actions, such as this 
hearing and the introduction of H. Con. Res. 268, certainly help a 
great deal.
Swordfish
    One important concern I have regarding the north Atlantic swordfish 
stock is that the U.S. protect its current quota share. Years of 
aggressive domestic bycatch controls combined with the dramatic 
rebuilding of the north Atlantic swordfish stock has left the U.S. 
pelagic longline fishery without sufficient access to the resource to 
harvest the full U.S. quota.
    Repeated failure of the U.S. to harvest any ICCAT quota places our 
quota in real jeopardy of being reallocated to other nations with poor 
records of compliance and far less control over their vessels than the 
U.S. The demand for ICCAT swordfish, particularly by new ICCAT members 
and developing nations, far exceeds the scientific total allowable 
catch. The consequence of such a reallocation to such nations would be 
to undermine the current level of conservation in the fisheries. Far 
more white and blue marlin, small swordfish and sea turtles will be 
killed if U.S. quota is lost to these other nations.
    I believe there are two things the U.S. should do to address this 
concern.
    1)  Re-open the Grand Banks Fishery. This is a U.S. domestic 
initiative. As explained above, the U.S. is soon to complete an 
incredibly successful cooperative research program to reduce sea turtle 
bycatch with the U.S. longline industry in the NED statistical area. 
This was conducted under an experimental fishery permit after the NED 
area was closed to U.S. longline vessels pursuant to the Endangered 
Species Act (ESA).
    I believe the experimental fishery has far exceeded the sea turtle 
bycatch and mortality reductions of the ESA mandate and that the 
fishery should be fully reopened early next year. To date, 
approximately 12-14 U.S. pelagic longline vessels have been allowed to 
participate in the experimental fishery. This fishery could be expanded 
through the reopening of the area and by providing U.S. vessel 
operators the opportunity to refit existing vessels or to build larger 
vessels that can safely operate so far offshore.
    I don't want to overstate this, but the expansion of the Grand 
banks (NED) fishery provides one important opportunity for the U.S. to 
shift pelagic longline fishing effort away from U.S. near-coastal areas 
to the productive Grand banks swordfish and tuna grounds as well, as to 
more fully harvest the U.S. quota share.
    2)  Defend ICCAT Quota. The U.S. must vigorously defend its ICCAT 
quota share of north Atlantic swordfish so that it is not reallocated 
to nations that do not even approach the U.S. level of conservation of 
directed-species or bycatch species. Failure to achieve this objective 
will undermine the conservation of many ICCAT species.
    NOTE: An attachment to Mr. Delaney's statement has been retained in 
the Committee's official files.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Delaney.
    Mr. Hayes.

                 STATEMENT OF ROBERT G. HAYES, 
              U.S. ICCAT RECREATIONAL COMMISSIONER

    Mr. Hayes. It is always a pleasure to come and talk to you, 
Mr. Chairman. The meeting this year I think has been pretty 
well described by Glenn and by Bill. With my remarks I want to 
channel in the focus of white marlin, because as the 
Recreational Commissioner that really is the focus that I have 
got.
    If we look at white marlin, white marlin is a species which 
is caught as a bycatch by, as Glenn points out, by 50 different 
nations. It is only really in the United States where we view 
white marlin in the tone and the style in which we view it, 
which is as an important economically valuable species to the 
United States. Most other countries don't. Frankly, they view 
it as a nuisance.
    So when you begin to talk about white marlin conservation 
measures internationally, you have to be frankly a little bit 
more inventive than simply walking out and saying what we need 
here is huge time and area closures or something that is going 
to close down 50 or 49--well, including our own, 50 nations' 
commercial fleets. Those kind of measures are very difficult to 
negotiate.
    We have an opportunity this year to negotiate what I view 
as one of those measures that could be extraordinarily helpful, 
and that measure is comprehensive compliance. The trick to 
ICCAT--and I believe the trick in the Pacific--will ultimately 
be how do you put in measures into the importing countries that 
allow those countries to prohibit imports of species that are 
being conserved when related violations of other species 
occurs.
    So white marlin is a great example. There is really no 
international trade in white marlin. You can't go out and buy a 
white marlin very easily, frankly. In the United States, if you 
do, you are going to be in big trouble.
    What you need is a measure that prevents the import of an 
ICCAT-managed species. Bluefin tuna is an example--if there is 
a violation of some other comprehensive--for example, some 
other conservation--measure, the no-landing of--or the discard 
prohibition--for white marlin.
    Until we get that kind of a comprehensive measure, which I 
believe your resolution heads us toward, we are not going to 
solve some of these broader issues, particularly issues about 
things like turtles, seabirds, white marlin, blue marlin, 
sharks, a lot of things that are being caught incidentally to 
other directed fisheries.
    That is sort of the key, in my view, of where we ought to 
focus this year, and we have had some discussions about that 
and how much progress we can make on this. This is not an 
uncomplicated issue, as you can imagine, but that certainly is 
one of the focuses we are going to have.
    I want to describe to you just very quickly what I see is 
kind of the conundrum that we are in. Can you imagine in the 
United States having 50 States which essentially allowed--and 
we allowed, you know, for whatever reason --illegal activity to 
occur under conservation laws and we simply ignored it or we 
designed things that didn't work and we didn't enforce it? It 
is unimaginable in the United States.
    Can you imagine duck hunting, commercial duck hunting, on 
the Eastern Shore to occur and the United States wouldn't go 
out there and enforce it? Well, frankly, until these measures 
that Glenn has been talking about, those 122 measures were put 
in place--and we need more of them--that is frankly what was 
going on internationally, not just in the Atlantic but going on 
in the Pacific. That progress that we are making toward this 
larger comprehensive compliance measures is moving in a 
direction where that is not going to occur. That basic 
conservation ethic that we have here in the United States is 
going to get carried forward.
    Now, one of the questions always is: So what can you do 
here at home, particularly on white marlin? One of the problems 
we have in white marlin is that Glenn Delaney and Bill Hogarth 
are great negotiators, great negotiators, but if you don't have 
any science on your side, as Bill was saying, if you don't have 
the data, you don't have the facts, it is awful tough to 
negotiate a very good understanding of where you ought to go.
    In the United States what we need is we need to do some 
research on two issues in white marlin. One is the basic 
biology. That has been clear for some time. Although some of 
that is going on, we need to get at it and get it done.
    The second one is how do long liners with the technology 
available to them today avoid catching white marlin? It might 
be time and area closures. It might be gear limitations. We are 
not sure what the answers are, and one of the reasons we are 
not sure is because we don't have a research program to find it 
out.
    What I would ask the Committee to do is to support the 
Senate in this regard. The Senate has a $2.5 million 
appropriation in for billfish research. The funding that is in 
the Commerce, Justice, State and the Judiciary appropriations 
bill and has gotten out of the full Committee and the Senate, 
but it is under negotiation at the moment. If this Committee 
could support that $2.5 million, maybe we could at least 
initiate some kind of a billfish program or enhance the 
existing billfish program so that we could get some research 
done here at home. I can tell you that without a little bit of 
research, frankly billfish will have to always be sort of set 
back and will not be very well advanced.
    And I, too, welcome your participation in Ireland and look 
forward to it, and we hope that Congress can do what it has to 
do and so that you can be available to come visit with us. 
Thanks.
    [The prepared statement of Mr. Hayes follows:]

           Statement of Robert G. Hayes, U.S. Commissioner, 
    International Commission for the Conservation of Atlantic Tunas

    Good afternoon. My name is Bob Hayes and I am the Commissioner to 
the International Commission for the Conservation of Atlantic Tunas 
(ICCAT) for recreational interests. I am also the general counsel for 
the Coastal Conservation Association (CCA). This Committee has always 
supported the efforts of recreational and commercial fishermen to 
conserve tuna, swordfish and billfish through international 
arrangements like ICCAT. This year, by the passage of H. Con. Res. 268 
and through your direct participation in the process, you will be 
reinforcing those efforts. I know that I, the other Commissioners, and 
the recreational community appreciate and welcome your participation 
and support.
    The international management of highly migratory species is at a 
crossroads. Nowhere in the world is this more of an issue than in the 
Atlantic Ocean. I would like to concentrate on the root of the dilemma 
and what can be done through ICCAT and here at home to advance the 
conservation of all highly migratory species. First, let me describe 
what is going on in the Atlantic, which today may be as dynamic as any 
time in the history of the fishery.
    Today, there are three distinct forms of activity going on in the 
Atlantic: 1) harvest by ICCAT-member nations under specific 
conservation measures; 2) harvest by non-member countries; and 3) 
harvest by vessels that are illegal, unregulated, unreported and now 
undersized. In addition to this mix, add the commercial phenomenon in 
the Mediterranean of large scale tuna farming. The directed harvests 
are of swordfish, sharks, yellowfin, bigeye, bluefin and albacore tuna. 
The bycatch includes seabirds, sea turtles, some sharks and billfish, 
but primarily blue and white marlin. The harvesting techniques include 
longlines, purse seines, and hook and line. The fleets include transfer 
vessels and large catcher processors. The combined fleet consists of 
thousands of vessels that harvest around 400,000 metric tons of tuna 
and swordfish. Of that, the United States harvests less than 5 percent. 
Oddly enough, the most valuable ICCAT fishery for the United States is 
billfish, about which almost no other ICCAT member seems to care.
    The entity trying to manage all this--ICCAT--includes 37 members 
representing over 60 countries. In the last decade, ICCAT has adopted a 
series of conservation measures to control the harvest of tunas, 
swordfish and billfishes. These measures have generally fallen into two 
categories--harvest limitations and measures to ensure compliance. 
During the same period, the harvest effort in the Atlantic by member 
and non-member nations has grown, and the production capabilities of 
individual countries have advanced significantly. If we are to 
accomplish anything this year regarding white marlin it has to be in 
the area of market-based compliance.
Compliance
    This year, like many in the past, the U.S. focus should be on 
compliance by member and non-member countries with ICCAT conservation 
measures. Three ideas have surfaced, all of which have merit. The first 
idea would control bluefin tuna quotas by allowing the principal 
importing country to stop imports from a country's vessels once that 
country has exceeded its quota. For example, Japan may be importing 
more bluefin from some eastern bluefin countries than the total 
allowable harvest for those countries. Something is wrong with that. 
Such a measure will not be easy to implement; however, if Japan is 
willing to use such a measure we ought to be wiling to empower them to 
use it.
    The second enforcement idea that may have some merit is adding tuna 
farming operations to the positive list. Failure to comply with 
reporting requirements would be grounds for delisting a farm. (See 
discussion of positive and negative lists below.)
    The third option is most intriguing. It would allow importing 
nations to prohibit trade in ICCAT species in the event of any 
violation of any ICCAT conservation measure by any vessel of a 
contracting or non-contracting party. This would, for the first time, 
link all ICCAT conservation measures with market access for any ICCAT 
species. It would affirm what many have thought all along, that ICCAT 
marlin restrictions cannot be effective unless importing countries can 
deny access for other valuable ICCAT species.
    We need to make progress on all three of these measures this year.
    In addition to compliance there are a number of other important 
issues, some of which are addressed below. The issue of mixing is not 
included because it is unclear where that road will lead.
Tuna Farming
    In recent years a whole new industry has developed in the 
Mediterranean. Purse seiners now catch small bluefin tuna and put them 
in pens to grow. They are fed in the pens for up to six months and 
harvested for sale to Japan. This is a very high quality product and 
one that can be sold at a distinct market advantage. The size of these 
operations is enormous and the growth of this sector could outstrip the 
scientific recommended harvest in the Mediterranean. There are single 
farming operations that hold more bluefin tuna in their pens than are 
caught in the entire western Atlantic. In fact, two years ago the U.S. 
delegation to ICCAT saw a pen operation that contained more tonnage 
than the entire western bluefin quota. At least eight countries are 
engaged in tuna farming--Spain, Malta, Italy, Tunisia, Libya, Cyprus, 
Turkey and Croatia. Three of the countries--Tunisia, Libya and Cyprus--
began the activity in 2003.
    Recognizing this explosion in bluefin pen rearing, last year's 
ICCAT meeting approved a requirement for countries to report on the 
practice. These fish are caught by purse seiners from a variety of 
nations. The European Union (EU) recently asserted that all transfers 
from its member vessels were viewed and recorded by observers. 
Presumably, those harvests were counted against existing ICCAT quotas.
    The farms present enormous opportunity for illegal activity. 
Disregarding fishing quotas, overfishing, laundering and black 
marketing are words that many are using to describe the possibilities 
here. Tuna farming <SUP>1</SUP> in and of itself is not the problem. 
This may be a legitimate way to maximize the value of the fishery; 
however, because of its size and the potential for abuse this activity 
must be highly transparent. What goes in the pens as well as what comes 
out must be recorded and member nations must comply with the existing 
quota regime.
---------------------------------------------------------------------------
    \1\ There may be significant environmental problems with tuna 
farming which ICCAT does not have the authority to address.
---------------------------------------------------------------------------
The New Fishing Nations
    In the early days of the Magnuson-Stevens Act, this nation 
undertook a fishery development program designed to maximize its 
resources out to 200 miles. At the time the United States could have 
been considered a lesser-developed fishing nation. Today, the zeal for 
development of a domestic fishery has been transferred to any number of 
Atlantic coastal nations. As ICCAT compliance quotas have come on line, 
nations previously fishing outside the convention have decided to join. 
Countries joining ICCAT are asking for quotas. Last year, Mexico joined 
and got a quota for both bluefin and swordfish. Iceland joined and 
asked for a bluefin quota. Malta and Cyprus, joining this year, will 
clearly ask for quotas.
    These demands, coupled with the demand of existing members for 
increased quotas, stress the system. ICCAT cannot sustain comprehensive 
quota and allocation regimes that simply add up the demands of fishing 
nations and establish that total as the quota, regardless of the 
science. Last year's eastern bluefin regime was very close to this. The 
United States argued that the quota should be considerably lower. The 
EU argued that the quota had to cover all nations fishing for eastern 
bluefin and that over time it would equalize because of a reduction in 
small fish catch. Were there a reduction in small fish catch over the 
next five years, it would be possible to sustain the present level of 
harvest. U.S. constituencies, through the use of the Pelly Amendment 
and Section 301 of the Trade Act of 1974, as amended, are ready to 
apply more pressure if progress is not made.
Illegal, Unreported and Unregulated Vessels
    Last year I appeared before this Committee to discuss the ICCAT 
challenges in 2002. Then, I told the Committee the single most 
important thing that could be accomplished at ICCAT was a 
recommendation providing member countries with the authority to prevent 
the imports from illegal, unreported and unregulated (IUU) vessels. Two 
measures were adopted, the so-called ``positive list'' and ``negative 
list.'' The National Marine Fisheries Service (NMFS), along with ICCAT 
and other member nations, is in the process of developing these 
measures. The measures require that imported product (swordfish and 
bluefin tuna) be registered with the ICCAT secretariat (positive list) 
or, conversely, identified on a list as an IUU vessel (negative list).
    Although these measures are new they will control a significant 
amount of the illegal trade coming from these vessels. The United 
States needs to ensure it implements these measures so as to not 
disadvantage U.S. commercial fishermen. As markets close to IUU product 
it will flow some place else with significant market disruption. The 
United States needs to prepare to guard against these imports by 
establishing protocols with the Customs Service before major foreign 
markets are closed.
    Report cite to a new IUU fleet--some 100 longline vessels targeting 
sharks in the Caribbean. These are new vessels, all built small enough 
to avoid the Food and Agriculture Organization (FAO) guidance on IUU 
vessels, which only applies to vessels over 24 meters. The new fleet 
can be described as IUUU, with the last U for undersized. One can only 
imagine the impact on white marlin from 100 vessels purse seining for 
sharks. Only the comprehensive approach described above will get at 
this problem.
Solutions
    White marlin presents the biggest highly migratory species (HMS) 
conservation problem in the United States. What can we do? I have, at 
various times, described for this Committee approaches which could lead 
to the recovery of this stock. First and foremost, this is an ICCAT 
problem. It can only be solved internationally. In 1988, NMFS made 
marlin a game fish. It prohibited its sale and import, and landings by 
recreational fishermen were drastically reduced. Still, the stock 
declined to the point it was considered listable under the Endangered 
Species Act. ICCAT stepped in and made marlin a live release fishery 
until 2005, when the stock will be reevaluated. No one thinks these 
measures are adequate to recover the stock. So how do we recover the 
stock?
    First, do not list them under the ESA. NMFS was right when it 
concluded that listing was not the right way to achieve recovery. The 
proper venue is ICCAT, which is best persuaded by good science. Senator 
Kay Bailey Hutchison has requested $2.5 million in Fiscal Year 2004 
funds to do research, but more is needed. The United States should 
embark on three tracks immediately. First, gather the basic scientific 
data so that we can agree on the status of the stock. Second, initiate 
gear research similar to that done for the bycatch of turtles. Third, 
determine if there are any time and area closures where bycatch of 
white marlin can be reduced. Once we have the science we can establish 
measures to rebuild the stock, but without the science improvement will 
take an act of God.
    Thank you for allowing me to testify here today. I look forward to 
your questions and comments.
                                 ______
                                 
    Mr. Gilchrest. I guess this question might be answered by 
all three. Each of you made some comments about the scientific, 
fundamental scientific conservation mission of ICCAT, and, 
Bill, you were a little bit pessimistic about ICCAT's future 
because of its lack of scientific data that it is collecting, 
and you also talked about comprehensive, fundamental 
comprehensive mechanisms to keep undersized fish from flooding 
U.S. markets and the members of ICCAT were not in a position to 
make these geopolitical maneuvers or have the influence or make 
those kinds of decisions.
    So I guess what--and we are going to--I was not sure if I 
could make ICCAT based on our Congressional schedule, my 
district schedule, but I think after what we are hearing today, 
Mr. Pallone and myself and maybe some of the other Members will 
do everything we can to go at the appropriate time and use our 
position as Members of Congress to help buttress your position 
with the other members.
    When we do that, though, can you be somewhat specific about 
the mechanisms upon which we should push after we get there to 
the other members, our counterparts, other parliaments, members 
of ICCAT. As far as Mr. Delaney, you were referring to this 
comprehensive mission that could catch some of the problems of 
the other countries in their commercial activities, whether 
they be unfair trade practices, stopping undersized fish from 
coming into the U.S., those kinds of things.
    But when we go over there, I think it would be very useful 
for us to have some very specific recommendations that we could 
make to our counterparts, and I guess you could do that in 
somewhat general terms now and in more specific terms in the 
next week or so.
    Mr. Delaney. Well, the U.S. Commissioners will be sitting 
down with Admiral Lautenbacher and a number of other important 
people in the Department of Commerce and the Department of 
State very soon to resolve what are the list of specific ICCAT 
priorities for the United States. So that will essentially 
become our adopted U.S. position. And certainly I think in 
probably all three of our testimonies, we have outlined some 
very specific issues that are likely to be on that list of 
priorities adopted in that soon to happen meeting. And so that 
can provide the basis for us to work with you to identify, OK, 
these are our specific trade agenda items that we want to 
pursue, these are our specific white marlin, blue marlin, on 
down the list. And, you know, perhaps there should be an 
opportunity for us to discuss those prior to leaving or when we 
are over there just prior to entering into the meeting.
    But as I said in my testimony, I think there is perhaps an 
opportunity--the EC does comprise the largest share of harvest 
in virtually all of the major species at ICCAT. They have 
distant water fleets, coastal fleets, everything imaginable in 
between, and the Mediterranean situation in particular where we 
have a lot of the problems. And we will be in the EC, and it 
would seem that our U.S. mission in Brussels ought to be able 
to secure some tension of your counterparts in the EC 
parliament or in their commission itself who are responsible 
for higher-level fisheries policy than just their ICCAT 
Commissioner--
    Mr. Gilchrest. This would be in Dublin or Brussels?
    Mr. Delaney. I don't see why not.
    Mr. Gilchrest. So it would be important for us to make 
those contacts now prior to heading over?
    Mr. Delaney. Absolutely. And I think it would certainly 
create a backdrop that would really strengthen our ability to 
negotiate at the Commissioner level if our EC Commissioner, who 
is in many ways our--I don't know the right word to use--
nemesis, foe, opponent in a lot of these conservation and 
compliance issues.
    Mr. Gilchrest. Is a lot of the problems we are facing now 
with ICCAT the fact that we don't have enough data at this 
point? Is it that the data is there but the negotiations don't 
go well, compliance is ignored?
    Mr. Delaney. We have--the very first requirement adopted by 
ICCAT in 1969 was for each nation to submit basic catch effort, 
that type of data to ICCAT. It is a scientific organization 
designed to find out how many fish are you catching, put that 
into a scientific model and determine the status of stocks 
based on the fishing mortality rates. Very fundamental stuff.
    Today we are experiencing horrible problems with countries 
not reporting, perhaps deliberately, and as a result, stock 
assessments on, for example, eastern bluefin tuna, which has 
such a great impact on the western bluefin tuna, and I would 
love for somebody to ask me why we can't do a--
    Mr. Gilchrest. Mr. Pallone will ask you why. I am out of 
time.
    Mr. Delaney. We can't do a stock assessment for the fact 
that nations fail to report their data. So it is a very serious 
issue. I am sorry to take so much time.
    Mr. Gilchrest. Thank you very much.
    I am going to yield--we may have a second round, but I will 
yield to the gentleman from New Jersey, Mr. Pallone.
    Mr. Pallone. Well, if Mr. Delaney would just elaborate a 
little on the last thing you said. You were talking about the 
stock assessment, and did you finish what you said?
    Mr. Delaney. Because of the lack of data and the failure of 
nations to submit data.
    Mr. Pallone. So this is the same issue that you raised, Mr. 
Hayes?
    Mr. Delaney. It is particularly acute for the eastern 
Atlantic bluefin stock, which really affects the western 
Atlantic stock as well.
    Mr. Pallone. I was going to ask Dr. Hogarth on the 
compliance issue, in your written testimony you say at one 
point that there are proposals for establishing a vessel 
monitoring system program and spelling out flag state duties 
pending before the Commission this year. Did you want to tell 
us a little bit about those? I think you mentioned it 
previously.
    Dr. Hogarth. Just a way of keeping up with some of these 
vessels, we have developed now a positive list so that you have 
to be on this list to sell fish, to be able to buy.
    Part of this continuing compliance is to have vessel 
monitoring systems so that we can know what flag you are flying 
and to keep up with the vessels. It is part of the compliance, 
and it has been fought quite a bit, the vessel monitoring. A 
lot of the countries do not want these type of systems that can 
track you while you are fishing, the way you are fishing.
    Mr. Pallone. But is the Commission going to adopt this?
    Dr. Hogarth. We hope so.
    Mr. Pallone. That would happen at this meeting?
    Dr. Hogarth. This meeting.
    Mr. Pallone. So it is one of the things we could advocate 
when we are there, I guess.
    Dr. Hogarth. Yeah, you could. And let me tell you one story 
from what Glenn said about data. The U.S. sponsored--we put 
additional money this year into ICCAT to have a data workshop 
to look at the data. Of 37 nations, 7 showed up, and, you know, 
it is just--it is not being taken serious, and when you are 
doing--if you are exceeding your quotas and taking undersized 
fish, the stock assessment people go there and they cannot do 
the assessment. I was talking the other day to the stock 
assessment people, I said, well, what about bluefin tuna? At 
this rate that they are taking eastern bluefin tuna, aren't we 
in danger of losing the stock? They said, well, the data is so 
poor, we don't know; it could happen next year or the year 
after next. We just don't know.
    Mr. Pallone. Is the fact that the countries aren't 
conducting these stock assessments purposeful? In that they are 
trying to avoid it, or they just don't have the resources that 
they have been allocating or what is the problem?
    Dr. Hogarth. Well, I think you are dealing with some 
developing countries, but one of the biggest reasons for not 
reporting is the European Union, they have--as I say, they have 
plenty of money. They contribute the most. They have the most 
countries. I think it is a matter of I think if you report it, 
then you have got to be accountable for it, and then you can do 
the stock assessments and really document what is happening. So 
if you don't report it, it doesn't give you--it doesn't make it 
easier for us to do the work that we have to do. So I think 
some of it is on purpose, to be honest with you.
    Mr. Pallone. Just not to be bothered and not to--
    Dr. Hogarth. Not to be bothered and not to present the data 
that you can make factual decisions based on it.
    Mr. Pallone. Mr. Hayes, when you were talking about 
compliance, you said that we needed measures that allow the 
states to prohibit directed ICCAT species if there is a 
violation of some other conservation measure. Give me some 
examples of that.
    Mr. Hayes. Marlin I think is a good example, but let me--
there is today a provision in the ICCAT conservation 
recommendations that essentially requires you to discard all 
white marlin basically. So let's assume that we have a country 
that its landings go right off the chart and we identify those 
landings. The measure today would be pretty much nonexistent. I 
mean, it would almost be a--we would have to go, we would have 
to identify the country, we would have to go through a 
reasonably long process to identify them and say you did wrong.
    The question then is what measure could you take against 
them? Well, the measure is not going to be prevent the import 
of marlin, because there is no export of marlin. So let's 
assume that country A also has a very large catch of bigeye 
tuna that they export, let's say, to the United States. The 
United States could take actions to prevent, under what I would 
like to see, could take actions to prevent the import of bigeye 
tuna based on the violation that occurred to marlin. So what 
you would do is you are tying them together.
    Now, I am not talking about extending it beyond measures 
which would apply to convention species, but I am talking about 
tying together all of the convention species.
    Mr. Pallone. And you would have a hard time getting support 
for that, I guess, huh? The Commission would have to adopt a 
rule?
    Mr. Hayes. The Commission would clearly have to adopt a 
rule. They clearly would have to identify the violations. Those 
things would all have to occur, but it is, I think, one step 
beyond where we are today. There is no question that if you 
violate a bluefin tuna regulation internationally that 
individual states have unilateral authority to prevent the 
import of that bluefin tuna. Those rules are basically in 
place. The idea here is to go one step beyond that and deal 
with the conservation of other species for which there is no 
direct import.
    Mr. Pallone. Thank you.
    Mr. Gilchrest. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I thank the 
members of the panel for their testimony. I wanted to ask Dr. 
Hogarth, you mentioned that--what is the annual operating 
budget of ICCAT? I am pleading ignorance here. I don't know 
what the--
    Dr. Hogarth. I am going to have to plead ignorance also, 
but I will find that number and get it back to you.
    Mr. Faleomavaega. You mentioned that the majority of the 
funding comes from the European Commission, and I gather that 
the application of the golden rule, he who has the gold makes 
the rule, so does this give reason why the EC seems to dominate 
the operations of ICCAT?
    Dr. Hogarth. I think that is the opinion, and when you have 
got that many countries that you can sort of control, I think 
it is easier to control the process. I mean, we met with him. 
The first thing he told us, he said, I contribute the most 
money, I catch the most fish, we expect to have the Executive 
Secretary, we expect to keep the bluefin tuna panel, and so we 
started from there.
    Mr. Faleomavaega. So some 37 member countries contract with 
ICCAT. We are at a complete disadvantage in that regard because 
of the sheer numbers. One vote against 36, which predominantly, 
I presume they are all European, doesn't give us much leverage 
in terms of our concerns when we meet in these meetings. Am I 
wrong on this assessment?
    Dr. Hogarth. But the EC only gets one vote. Each country 
gets one vote basically, and we try to do things by consensus, 
but you are dealing with, you know, developing countries. I 
think we have a chance. We work well with Canada, Japan and 
others. So, you know, we have the opportunity, but it is a 
matter of making deals, as you all are well aware, and they can 
maybe do that easier. We caused some last year to have to pay 
for countries to stay because they were concerned of how the 
things were going to turn out. So we can have an influence.
    Mr. Faleomavaega. Mr. Delaney, you had mentioned that it is 
only within the last 10 years that we have finally gotten more 
substance done by way of proposals within ICCAT meetings, that 
the Administration at that time really pushed hard to make some 
of these changes.
    Does this seem to be the same trend of the current 
Administration's efforts to push just as hard as the 
predecessors?
    Mr. Delaney. Absolutely. In fact, I wish I had brought it 
with me, but there is sort of a graph showing the annual 
adoption--the number of measures that are adopted at ICCAT in 
each year, and it just continues to rise substantially, and I 
think this Administration--I don't know that it was necessarily 
a political thing, but I think that the Commissioners in 
particular who are leading the ICCAT delegation, changed 
dramatically in the early 1990s and came with a fresh and 
different perspective on what needed to be done. And I think 
that we were listening very closely to the affected 
constituents, to Members of Congress and sort of rolled up our 
sleeves and said we need to reform this dinosaur called ICCAT 
and try to make it work, because there is no alternative.
    While Dr. Hogarth fears what might happen with regard to 
ICCAT and our future participation, he knows, as we all do, 
there really is no alternative. These are highly migratory 
species that have to be managed through international 
cooperation. There is no other way. So we have to make it work.
    Mr. Faleomavaega. We have the Inter-American Tuna 
Commission out in La Jolla that manages somewhat the Latin 
American tuna fishing situation, and just last year or this 
year we have also signed off to a tuna convention that is 
composed of many of the Asian and Pacific Island countries. It 
all comes down to one theme, though, Mr. Delaney, is that a lot 
of rhetoric, but when it comes to enforcement, countries like 
Japan, very, very big fishing, industrial country, very 
reluctant to come forward. The question of observers on these 
vessels to make sure that there is compliance, I don't know if 
ICCAT does the same thing, but we are having problems with 
that, too.
    So I happen to have the largest tuna canning facility in 
the world, and my humble prediction right now is that we are 
going to be iced out in another 10 years the same way that our 
textile industry is also going to be taken out by other 
countries, simply because we just don't have the proper 
measures to compete with lower labor costs from Third World 
countries. And they are demanding now that they export their 
tuna duty free to the United States, and so we are up against a 
real difficult situation. I suspect we have 110 swordfish 
fishing vessels from New England that are now based out of 
Hawaii simply because swordfish is out--is overfished in New 
England area. So we really have some very serious problems.
    I would humbly suggest to Mr. Chairman that after the 
meeting of our members of the ICCAT, if they would come back, 
and we ought to have a follow-up hearing and tell us what you 
encounter, and maybe we can prepare the proper legislation to 
address those things that our friends there in Europe are not 
willing to deal with, and I certainly would support it.
    Mr. Gilchrest. We will do that, Mr. Faleomavaega. We do 
have a vote on. Then I will yield at this point to the 
gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Thank you, 
gentlemen, for your testimonies.
    Mr. Delaney, you mentioned in your written testimony that 
Taiwan's fishing practices leave a lot to be desired. Correct 
me if I am wrong, but Taiwan is not a member of ICCAT?
    Mr. Delaney. Actually, because of Taiwan's unusual 
political status as compared to other nations, they are not 
considered to be a contracting party to ICCAT. Nevertheless, 
they do have a special status conferred upon them that is 
somewhere between a nonmember and a contracting party, which 
does give them an opportunity to participate in ICCAT fisheries 
and be part of the management and conservation program.
    Ms. Bordallo. Well, who keeps an eye over them? It says 
Japan has pressured them to comply with ICCAT.
    Mr. Delaney. Right.
    Ms. Bordallo. Is that working?
    Mr. Delaney. Subject to ICCAT rules and regulations. I 
think because of the relationship between the Japanese fishing 
industry and the Taiwanese fishing industry historically, the 
Japanese government has had the capability to have more 
influence over the Taiwanese fishing industry than other 
nations have been able to.
    However, my personal view is that the United States is in a 
position to exert very strong leverage on Taiwan and their 
practices, both inside and outside of ICCAT, and that this is a 
nation that has caused a great deal of problems for us at ICCAT 
and that while what I am saying may not be politically correct 
in all circles, if we are going to make ICCAT work, Taiwan 
needs to play by the rules and be treated with severity when 
they go off the--
    Ms. Bordallo. So will this be the discussion then at your 
next gathering?
    Mr. Delaney. I would hope so, and that is an area where I 
think we could use political support, to have you, the U.S. 
Government, feel that it has the wherewithal, the intestinal 
fortitude, if you will, to take on the Taiwanese issue.
    Dr. Hogarth. On that point real quick, the State Department 
just signed a sort of a memorandum of agreement to work with 
Taiwan--I don't know exactly what it is called--on some issues, 
and part of that is that they would be in compliance with their 
fishing regulations. So we will use this avenue because Taiwan 
is now fishing in Hawaii. They are everywhere, and they are 
expanding their fleets, and really we do have to help bring 
them in. So there is an avenue we have through the State 
Department.
    Ms. Bordallo. Thank you.
    And my next question is for you, Dr. Hogarth. NOAA 
Fisheries more or less manages and regulates Pacific fishing 
for the Federal Government. Would that be a correct statement?
    Dr. Hogarth. Yes, ma'am.
    Ms. Bordallo. And the ICCAT mission is primarily for the 
Atlantic.
    Dr. Hogarth, what is the level of international 
cooperation--
    Mr. Gilchrest. Could I ask the gentlelady to yield, from 
Guam, just for 1 second?
    Ms. Bordallo. Yes.
    Mr. Gilchrest. We have unfortunately four votes instead of 
one. That is going to be a considerable amount of time, and I 
know there are some members on the second panel that don't have 
that much time because we will be gone about 40 minutes. We 
will return, but I am going to ask Mr. Faleomavaega to chair 
the hearing until we come back so we don't have any disruption.
    Mr. Faleomavaega. See, I have already voted, Mr. Chairman.
    Ms. Bordallo. I have, too. We are delegates. We don't vote.
    Mr. Faleomavaega. That is what democracy is all about, Mr. 
Chairman.
    Ms. Bordallo. Let me repeat that question then.
    Regarding the NOAA, they regulate Pacific fishing for the 
Federal Government, and ICCAT's mission is primarily for the 
Atlantic. What is the lever of international cooperation 
received by the United States in conserving the species of 
concern in the Pacific?
    Dr. Hogarth. Right now we are developing a new mechanism 
for the central Pacific in the multilateral conference and we 
were concerned that Japan was not a member of that, but they 
have recently agreed to become a part. So that is going to be, 
I think, a great avenue for the Pacific. And then we also have 
for the eastern tropical Pacific the international--the IATTC, 
and they have done pretty good work. In fact, they have a 
capacity control in there now, which is one of the few 
organizations that get capacity in place.
    So I think we have two mechanisms, and we have some 
individual scientific groups in the Pacific. So I think the 
concern there is how are we going to bring this together in the 
umbrella. We have got several small groups doing it, like the 
eastern tropical, western, central Pacific, but these fish 
don't recognize these lines; so we are going to have to develop 
an umbrella, so to speak, to get the various groups together. 
But I think we have a good mechanism in the Pacific, I really 
do.
    Ms. Bordallo. I was just thinking, inasmuch as you are the 
international group and most of the countries that belong to 
your commission, the Pacific, they are fishing in both the 
Atlantic and the Pacific, and I am wondering if maybe you 
should enhance the scope of your work and include the Pacific. 
I don't know whether that would be stepping on the toes of the 
NOAA fisheries, but it seems to me you are the international 
group, you have countries from all over the world now as part 
of your membership, and we are coming together.
    As my colleague said, Mr. Faleomavaega, the next problem 
will be the Pacific Ocean where we will be discussing and 
addressing problems of overfishing. So I think that maybe you 
ought to include the Pacific and henceforth be known as 
``ICCAPT,'' if you might bring that up.
    Dr. Hogarth. Well, we did discuss recently, too, about how 
to get IATTC and ICCAT together on maybe some issues, but as we 
see these boats move so much--obviously they are moving, we 
have got them everywhere as we regulate fisheries, and I think 
FAO does some of this but I think we do have to look on a broad 
spectrum. NOAA Fisheries works with all of them. I am in NOAA 
Fisheries and ICCAT Commissioner, but we do work with all of 
them. So we have sort of a central theme within government, 
NOAA Fisheries, and we do that.
    Ms. Bordallo. It seems to me that ICCAT could enhance their 
mission and include the Pacific area, because as my colleague 
said, these vessels--they go from one ocean to another, and 
this is--it is going to happen very soon.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. [Presiding.] I want to thank Dr. Hogarth 
and Mr. Delaney and Mr. Hayes for your participation and 
statements this afternoon, and I really appreciate your coming 
to testify this afternoon.
    For the next panel, we have Mr. Michael Genovese, 
commercial fisherman, and member of the U.S. ICCAT Advisory 
Committee; also Vice President of White Dove, Incorporated. 
Also Dr. John Graves, Chairman of the U.S. ICCAT Advisory 
Committee; Mr. Herb Moore, Jr., Director of Government Affairs 
at Recreational Fishing Alliance; and Mr. David Wilmot, Jr., 
member of the U.S. ICCAT Advisory Committee, Rising Tide 
Consulting.
    I would like to ask Mr. Genovese to testify first. He has a 
very important engagement with his daughter's graduation, for 
which I would be more than happy to accommodate him for doing 
so, that he may testify first and that he will leave following 
his testimony. I understand that Mr. Moore is not here. He is 
probably stuck in the security that we are having at the Cannon 
Building. But as the Chairman said earlier, gentlemen, it is 
not for lack of interest but because of the way the system is 
set up here in the Congress, these votes have to be taken. But 
I am sure that the Chairman and Mr. Pallone will be back as 
soon as possible.
    MR. Faleomavaega. Mr. Genovese.

STATEMENT OF MICHAEL P. GENOVESE, SR., COMMERCIAL FISHERMAN AND 
MEMBER OF THE U.S. ICCAT ADVISORY COMMITTEE, VICE PRESIDENT OF 
                        WHITE DOVE, INC.

    Mr. Genovese. Thank you, Mr. Chairman. Mr. Chairman, it is 
indeed a great privilege to provide this Committee with 
testimony on the upcoming critical meeting of the International 
Commission for the Conservation of Atlantic Tunas in Dublin, 
Ireland. I have been a commercial fisherman for 26 years. My 
fishing vessel, White Dove Too, is one of the five licensed 
U.S. purse seine vessels authorized to fish for giant Atlantic 
bluefin tuna.
    I have been a member of the Advisory Committee to the U.S. 
section of ICCAT since around 1985, and at my own expense I 
have attended numerous international meetings of the 
Commission. Mr. Chairman, for at least the last decade the 
United States has been fortunate to have dedicated and talented 
U.S. Commissioners leading the U.S. delegation at ICCAT and 
pioneering highly complex multilateral compliance schemes and 
processes utilizing trade sanctions when justified.
    Despite the tireless effort and remarkable development of 
important and basic fishery management instruments produced by 
these Commissioners, particularly the current Commissioners, 
Dr. Bill Hogarth, Mr. Glenn Delaney, and Mr. Robert Hayes, I am 
deeply troubled and concerned about the future of ICCAT and its 
ability to meet its conservation objectives, particularly with 
regards to eastern Atlantic bluefin tuna. Many eastern Atlantic 
countries must share responsibility for the current deplorable 
state of affairs, particularly with respect to the current 
management policies and compliance levels for eastern Atlantic 
bluefin tuna, but none bears a greater responsibility than the 
European Union.
    The EU has almost single-handedly crafted and pushed 
through the most dangerous and outrageous 4-year plan for 
eastern bluefin that ignores scientific advice and also 
endangers the 1998 rebuilding plan for western Atlantic bluefin 
tuna.
    Since 1996 ICCAT's Standing Committee on Research and 
Statistics, the SCRS, the scientific arm of ICCAT, has 
recommended that the catch of eastern Atlantic bluefin tuna be 
no more than 25 or 26,000 metric tons simply to stop the 
decline in the resource. Despite this very clear warning of 
resource peril, total combined catches of 90,374 metric tons 
were recorded for the years 1996 through 2000.
    To provide some perspective, catches on our side of the 
Atlantic have been held by regulation mostly below 3,000 metric 
tons per year since 1981. This 90,000 metric ton overcatch in 
the East must be considered the minimum, given that the 
scientists repeatedly point out considerable underreporting, 
misreporting, and nonreporting by both member and nonmember 
countries fishing on eastern bluefin tuna. A most fundamental 
obligation of any fishing nation is to provide accurate, 
detailed, and timely information on catches to allow scientists 
to conduct stock assessments.
    With this backdrop, one can imagine the outrage of the U.S. 
Delegation at the 2001 ICCAT meeting when the EC unveiled its 
4-year plan for quote ``economic stability,'' unquote, with a 
starting and ending quota level of 32,600 metric tons. That is 
some 6,000 metric tons above the dire scientific advice.
    With assistance of Canada, the U.S. rightly blocked the EC 
proposal by denying consensus in 2001. This outrageous eastern 
Atlantic bluefin tuna situation is jeopardizing the entire 
Atlantic and the resource in the western Atlantic recovery 
plan. The combination of fish migrations, unequal conservation 
standards in the East and the West, result in much of the 
western conservation sacrifices being squandered and, to say 
the least, U.S. fishermen are fed up with the 28-year-old 
situation. Gross levels of overfishing and noncompliance in the 
East must end.
    Mr. Chairman, I believe this Committee can assist the U.S. 
delegation and improve the ICCAT process and achievement of the 
ICCAT mandate by moving on many of the recommendations 
suggested in the testimony of U.S. Commercial Commissioner Mr. 
Glenn Delaney at this hearing. U.S. Commissioners need support 
from the highest levels of the Administration and Congress to 
secure the necessary political leverage to change the political 
disposition among ICCAT players refusing to adopt minimal 
conservation standards and ethics. To do their job, the 
Commissioners require domestic and international recognition 
that international fishery conservation is a matter important 
enough to the U.S. Government that failure of nations to 
cooperate will affect their overall relations with the United 
States.
    There can be no doubt that within the international fora 
for fisheries conservation, the U.S. is the leading voice for 
tough conservation standards and measures. We often lead by 
example, subjecting our fishermen to even greater fishing 
restrictions than our foreign counterparts. This is clearly the 
case in commercial and recreational fisheries for Atlantic 
swordfish and Atlantic bluefin tuna, but it is also an 
established biological reality that we are responsible for a 
very small portion of the mortality on these stocks.
    We cannot successfully conserve these stocks unilaterally 
without cooperation of all of the major fishing nations. Those 
U.S. fishermen sacrificing under the burden of ICCAT 
restrictions have a right to expect that the U.S. Government 
will at least ensure that the fish caught in violation of ICCAT 
programs by contracting parties or by pirate IUU fishing 
vessels not be allowed to fairly compete with legitimate U.S.-
caught fish in the United States markets.
    Thank you very much for this opportunity to share my views 
on the necessary changes to achieve an effective and efficient 
and fair international conservation program at ICCAT.
    [The prepared statement of Mr. Genovese follows:]

 Statement of Michael P. Genovese, Commercial Fisherman, Member of the 
  U.S. ICCAT Advisory Committee, and Vice President, White Dove, Inc.

    Mr. Chairman, it is indeed a great privilege to provide this 
Committee with testimony on the upcoming critical meetings of the 
International Commission for the Conservation of Atlantic Tunas in 
Dublin, Ireland. I have been a commercial fishermen my whole life. My 
fishing vessel White Dove Too is one of five licensed U.S. purse seine 
vessels authorized to fish for giant Atlantic bluefin tuna. I have been 
a member of the Advisory Committee to the U.S. Section to ICCAT since 
around 1985 and, at my own expense, I have attended numerous 
international meetings of the Commission.
    Mr. Chairman, for at least the last decade the United States has 
been fortunate to have dedicated and talented U.S. Commissioners 
leading the U.S. delegation at ICCAT and pioneering highly complex 
multilateral compliance schemes and processes utilizing trade sanctions 
when justified.
    Despite the tireless efforts and remarkable development of 
important and basic fishery management instruments produced by these 
Commissioners, particularly the current Commissioners Dr. Bill Hogarth, 
Mr. Glenn Delaney and Mr. Robert Hayes, I am deeply troubled and 
concerned about the future of ICCAT and its ability to meet its 
conservation objective, particularly with regards to eastern Atlantic 
bluefin tuna.
    Many eastern Atlantic countries must share responsibility for the 
current deplorable state of affairs, particularly with respect to 
current management policies and compliance levels for eastern Atlantic 
bluefin tuna, but none bears a greater responsibility then the European 
Union. The European Union has almost singlehandedly crafted and pushed 
through a most dangerous and outrageous four-year plan for eastern 
bluefin that ignores scientific advice and also endangers the 1998-
rebuilding plan for western Atlantic bluefin tuna. I want to review 
specifically the eastern bluefin tuna situation to illustrate for this 
Committee the potential and real magnitude of damage resulting from the 
EU's extremely poor leadership, lack of conservation ethic at ICCAT, 
and blatant refusal to heed clear and repeated scientific advice.
    Since 1996 ICCAT's Standing Committee on Research and Statistics 
(SCRS--the scientific arm of ICCAT) has recommended that the catch of 
eastern Atlantic bluefin tuna be no more than 25 or 26,000 metric tons 
(MT) simply to stop the decline of the resource. Despite this very 
clear warning of resource peril, catches of 53,163, 48,988, 41,688, 
35,116 and 36,419 MT were recorded for the years 1996 through 2000. In 
just this five-year period Mr. Chairman, catches in the eastern 
Atlantic (led by the E.U.) have exceeded the scientific advice by a 
stunning 90,374 MT. To provide some perspective, catches off our side 
of the Atlantic have been held by regulation mostly below 3,000 MT 
since 1981. This 90,000 MT of overcatch must be considered the minimum 
given that the scientists repeatedly point out considerable 
underreporting, misreporting and non-reporting by both member and non-
member countries fishing on eastern bluefin tuna.
    Since 1975 ICCAT has had in place various minimum size measures in 
an attempt to protect juvenile fish and these have been openly and 
fragrantly ignored by longstanding directed fisheries in the 
Mediterranean Sea and Bay of Biscay. In 1998, ICCAT implemented a 3.2 
kg (about a 7 lb. fish!) minimum size with no tolerance. The latest 
stock assessment by SCRS notes that 36% of the number of fish caught in 
the Mediterranean were less then 3.2 kg while 40% of the Mediterranean 
catch was under the historical 6.4 kg minimum size. ICCAT scientists 
continue to deplore the fact that catches of age 0 bluefin continue to 
flourish and be underreported. To place this in perspective, off our 
shores it is illegal to sell any bluefin tuna less than 6'1'' or about 
200 lbs.! This is another example of the U.S. having a more restrictive 
conservation measure than any other country in the world.
    In 2002 the E.U. committed to a major effort to bring under 
compliance the multitude of fisheries throughout the Mediterranean Sea 
and Bay of Biscay that target small undersize recognizing the great 
biological risk attendant a four-year quota plan greatly in excess of 
scientific advice. The EU needs to be pressured to provide the 
resources required to define and develop emergency restrictions ending 
massive noncompliance with longstanding ICCAT minimum size agreements.
    A most fundamental obligation of any fishing nation is to provide 
accurate, detailed and timely information on catches to allow 
scientists to conduct stock assessments. Attached to my testimony are 
two pages from the 2002 latest stock assessment for eastern bluefin 
tuna which provides evidence of irresponsible behavior on the part of 
many eastern countries in not providing basic catch information. On the 
data issue the scientists have now issued this dire warning and I 
quote:
        ``The Committee continues to be strongly concerned about the 
        quality of the catch, effort and catch at size data available 
        to conduct quantitative assessments for East Atlantic (and 
        Mediterranean) bluefin tuna now and in the future. Unless this 
        situation improves, the quality of the advice that the 
        Committee can provide will continue to deteriorate.''
    In 2002 we learned that eastern fishing nations withheld at least 
8,898 MT of catch from ICCAT preventing a better stock assessment. EC-
Greece and EC-Italy were among the offending non-reporting countries 
along with Morocco, Tunisia, Turkey and others.
    And finally Mr. Chairman, on the grave status of the eastern 
bluefin resource the scientist offered this perspective:
        ``The Committee is concerned about the status of East Atlantic 
        (including Mediterranean) bluefin tuna resources in the light 
        of assessment results; the historically high reported catches 
        made in 1994-1997 (in excess of 46,000 MT 1994-97; and in 
        excess of 50,000 MT in 1996), and possible underreporting since 
        1998. Analyses suggest that at current levels of recruitment 
        and the present level of large and small-fish fisheries, catch 
        levels of 26,000 MT or more are not sustainable over the long 
        term.''
    With this backdrop, one can imagine the outrage of the U.S. 
delegation at the 2001 ICCAT meeting when the EC unveiled its four year 
plan for ``economic stability'' with a starting and ending quota level 
of 32,600 MT, some 6,000 MT above the most dire scientific advice. With 
the assistance of Canada, the U.S. rightly blocked the EC proposal by 
denying consensus in 2001. Not to be denied in their quest, the EC 
returned in 2002 with the same outrageous plan but also with a 
Machiavellian two-pronged strategy to overcome the expected U.S. 
resistance. They were prepared to pay supporting delegations costs to 
stay to the very end of the meeting and force a vote if necessary. 
Their backup strategy was to also force linkage of their controversial 
plan to other conservation agreements desired by the U.S. agreements. 
Not a single individual on the U.S. delegation wanted to see adoption 
of the 2002 EC four year biologically irresponsible plan and this 
opposition was made clear both in private and plenary meetings. But in 
the end the U.S. would have been powerless to prevent its effective 
implementation by an overwhelming vote.
    Attached to my testimony is data from a Japanese bluefin purchasing 
company (with contractual obligations to purchase fish from the tuna 
farms) summarizing expected production from the Mediterranean tuna 
farms this year. In 2002 approximately 14,650 MT of bluefin tuna were 
exported from farms in the Mediterranean Sea. According to the attached 
estimate, the EC's four year ``economic stability'' plan has given rise 
to an increase of almost 7,000 MT of farm production to 21,600 in 2003, 
the first year of the plan. You will note the increased farm production 
includes Turkey, Malta and Cyprus (totaling 7,250 MT) and these are 
countries without any specific eastern quota, rather they share in a 
quota category labeled ``Others'' limited to a total catch of only 
1,146. This allows an estimate of a total catch of 38,604 for 2003 or 
about 12,000 MT above the scientific advice.
    Mr. Chairman, the rapid development of fish farms for bluefin tuna 
in the Mediterranean presents a further great threat to the collection 
of catch data and compliance with country quotas. The farms offer an 
exceptionally convenient cover or ``black hole'' to hide excessive 
catches by claiming fish growth in the pens and diverting excess 
production to domestic markets not well-known or restricted. At a 
minimum ICCAT needs to add fish farms to the registry of positive 
vessels allowed to trade in ICCAT species. This should only be done 
after such fish farms have provided clear evidence of implementation of 
an ICCAT developed transparent, verifiable accounting and tracking 
system for the weight, date, responsible fishing vessel and other 
pertinent data regarding fish introduced and removed to and from the 
pens.
    Other estimates of the total Mediterranean 2003 catch suggests 
50,000 MT may be exceeded again. U.S. dealers of bluefin tuna have 
reported unprecedented levels of Mediterranean production flooding the 
international marketplace including a dramatic rise in exports to the 
U.S. sashimi markets crushing growing U.S. dealer participation this 
year. Prices to U.S. fishermen have dropped precipitously from an 
average of above $10.00 lb. in the late 1990's to $2.00 or $3.00 lb 
this year. Many of the fish shipped to Japan this year by U.S. dealers 
have been sold for less then the costs of shipping. The oversupply 
caused by runaway fishing in the Mediterranean is obviously causing 
severe financial injury to U.S. fishermen and fish dealers and other 
supportive industries along the eastern seaboard.
    This outrageous eastern Atlantic bluefin tuna situation is 
jeopardizing the entire Atlantic bluefin resource and the western 
Atlantic recovery plan. Earlier this week, the U.S. ICCAT Advisory 
Committee met and reviewed the latest high-tech electronic tagging data 
and the evidence is now exceptionally strong that mixing of fish 
between eastern and western fishing grounds is very extensive. The 
latest data demonstrates that 30% of the fish tagged off North Carolina 
travel to the Mediterranean Sea where they are subjected to this 
continuing slaughter. Western fish annually migrate to the central 
Atlantic again where they are subject to excessive eastern Atlantic 
catch levels. The combination of fish migrations and unequal 
conservation standards in the east and west results in much of the 
western conservation sacrifices being squandered and, to say the least, 
U.S. fishermen are fed-up with this 28 year old situation. Gross levels 
of overfishing and non-compliance in the east must end.
    Mr. Chairman, I believe this Committee can assist the U.S. 
Delegation improve the ICCAT process and achievement of the ICCAT 
mandate by moving on many of the recommendations suggested earlier 
today in the testimony of the U.S. Commercial Commissioner Mr. Glenn 
Delaney at this Hearing. The fundamental problems are very clear and 
include: 1. the lack of political will among certain Nations to support 
generally accepted conservation standards and the consequent failure to 
agree on policies to achieve conservation objectives; 2. poor 
compliance records with established conservation agreements by some 
contracting parties; and, 3. a continuing problem with illegal, 
unregulated and unreported fishing (IUU and often referred to as 
``pirate fishing''). In the ICCAT context, the European Community, 
North African countries bounding the southern coast of the 
Mediterranean Sea (in particular Morocco) and Taiwan standout as 
countries lacking the political will to embrace the responsibilities of 
conserving our shared highly migratory resources.
    The U.S. Commissioners need support from the highest levels of the 
Administration and Congress to secure the necessary political leverage 
required to change the political disposition among ICCAT players 
refusing to adopt minimal conservation standards and ethics. The threat 
and implementation of unilateral trade sanctions on fish and other 
products, foreign aid and linkage of cooperation on fishery matters to 
U.S. positions and actions on other issues of importance to the EC and 
other nations should all be on the table. To do their job, the 
Commissioners require domestic and international recognition that 
international fishery conservation is a matter important enough to the 
U.S. Government that failure to cooperate will affect your overall 
relations with the U.S. Countries need to know and experience that, if 
they undermine the effectiveness of an international conservation 
agreement, it will cost them in all their dealings and relationships 
with the U.S.
    I urge this Committee to look carefully at Commissioner Delaney's 
recommendation to create a new U.S. Office of Fishery Trade Monitoring 
and Enforcement to allow development and implementation of 
comprehensive regime of trade measures including unilateral measures 
(as necessary and permitted under Pelly Act, Section 301 of the Trade 
Act of 1974 and ATCA) and market controls to effectively enforce ICCAT 
conservation programs. There are no international fish police to 
enforce ICCAT measures on the high seas. Instead, the marketplace for 
these species is the arena for effective ICCAT enforcement.
    I would like to call the Committee's attention to an April 25, 
2003, letter (attached) to the Honorable Pascal Lamy, European 
Community Commissioner for Trade from Secretary of Commerce Donald 
Evans protesting the EU's lack of political will to follow ICCAT 
scientific advice on the establishment of sustainable quotas for 
eastern Atlantic bluefin tuna. This letter represents a breakthrough 
for the U.S. Commissioners at ICCAT who have long sought support and 
action by the Administration to pressure the EU for more conservation 
leadership within ICCAT. The Commissioners' focus on the EU recognizes 
that the EU is the most significant harvester in nearly all of the 
species under ICCAT purview and because of the influence they maintain 
with North African countries. In this respect, the EU can either chose 
to set a powerful international example of resource stewardship or 
provide a terrible example and excuse for other countries not to 
comply.
    The letter is a major step forward because it elevates ICCAT into 
the arena of serious bilateral trade relations and policy rather then 
just another fish or environmental issue. It remains to be seen whether 
this threat alone will influence a change in EU policies or whether 
further direct interventions by high-ranking officials within the 
Commerce and State Departments and implementation of trade sanctions 
will be required. We would hope this Committee could find additional 
avenues to influence further support within the Administration and 
elsewhere to pressure ICCAT parties for compliance.
    Mr. Chairman, there can be no doubt that within international fora 
for fisheries conservation, the U.S. is the leading voice for tough 
conservation standards and measures. We often lead by example, 
subjecting our fishermen to even greater fishing restrictions than our 
foreign counterparts. This is clearly the case in our commercial and 
recreational fisheries for Atlantic swordfish and Atlantic bluefin 
tuna. But it is also established biological reality that we are 
responsible for a very small portion of mortality on these stocks and 
we cannot successfully conserve these stocks unilaterally without 
cooperation from all of the major fishing nations.
    In the interest of having conservation programs be efficient and 
equitable it is clear to many in the fishing industry and many in 
government that the fastest and most effective way to improve the 
international conservation picture is for the U.S. to employ such 
legitimate trade sanctions against countries undermining the 
effectiveness of international programs. Those U.S. fishermen 
sacrificing under the burden of ICCAT restrictions have a right to 
expect that the U.S. Government will, at least, insure that fish caught 
in violation of ICCAT programs by contracting parties or ``pirate'' IUU 
fishing vessels not be allowed to unfairly compete with legitimate 
U.S.-caught fish in U.S. markets.
    Thank you, Mr. Chairman, for this opportunity to share my views on 
necessary changes to achieve an effective, efficient and fair 
international conservation program at ICCAT for our shared highly 
migratory resources.
    [NOTE: The April 25, 2003, letter follows. Other attachments to Mr. 
Genovese's statement have been retained in the Committee's official 
files. ]


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Faleomavaega. If Dr. Graves and Dr. Wilmot will wait 
for just a couple of minutes, we would like to ask Mr. Genovese 
a couple of questions before he leaves. Mr. Genovese, I just 
have a couple of questions and I am sure the gentlewoman from 
Guam has likewise.
    You mentioned specifically the European Union as the 
culprit not only for noncompliance, but certainly it does not 
seem to give much credence to some of the standards that ICCAT 
has set up, and you suggested that maybe we need to do 
something about it. As you know, we passed this resolution 
yesterday--Mr. Saxton had introduced it--and in a very strongly 
worded provision suggested that maybe we ought to look at 
sanctions as a very serious option if these countries do not 
comply with some of the ICCAT standards.
    What is your thinking along this line, Mr. Genovese?
    Mr. Genovese. I think we need to hit them where it hurts, 
in their pocketbook. If the sanctions are able to go through, 
then it would maybe make them wake up and smell the coffee, 
because there is just too much going on over there that they 
don't want to be responsible for.
    Mr. Faleomavaega. As a commercial fisherman yourself, what 
is your estimated value of the dollar of losses of our economic 
situation because of our compliance and yet at a disadvantage 
where these European Union countries are taking advantage of 
the situation, so to speak?
    Mr. Genovese. It would be hard for me to say right off the 
cuff what it is overall, but just this year, for example, with 
ongoing fish farming in the Mediterranean Sea and 
overproduction that we have numbers on right now--it is in my 
submitted document--our price of fish per pound has gone down 
60 percent just this year.
    Mr. Faleomavaega. Thank you. Ms. Bordallo?
    Ms. Bordallo. No questions.
    Mr. Faleomavaega. Thank you, Mr. Genovese. Have a good trip 
and all the best at your daughter's graduation.
    Mr. Faleomavaega.

            STATEMENT OF JOHN E. GRAVES, CHAIRMAN, 
                 U.S. ICCAT ADVISORY COMMITTEE

    Dr. Graves. Mr. Chairman and members of the Subcommittee, 
thank you for providing me the opportunity today to present 
testimony regarding the upcoming ICCAT meeting. I am John 
Graves, Chairman of the Department of Fishery Science at the 
Virginia Institute of Marine Science, College of William and 
Mary. I am also the Chair of the U.S. ICCAT Advisory Committee 
and have served in that capacity for the past 8 years.
    The U.S. ICCAT Advisory Committee met from Sunday through 
Tuesday of this week to consider the assessments and 
recommendations of ICCAT's scientific body and to discuss a 
variety of issues and options that the United States could 
propose at this year's Commission meeting. The ICCAT Advisory 
Committee's informed deliberations historically provide a 
starting point for the development of U.S. positions at ICCAT. 
This year the Committee noted many items of high priority for 
the United States to pursue in Dublin and it also discussed 
many of the challenges that we will likely face in achieving 
our objectives.
    For the past several years, we have been vocal advocates at 
ICCAT for conservation and sound fisheries management, but we 
have faced serious opposition from other members of the 
Commission. Late on the last day of the 2001 meeting in Murcia, 
Spain, the United States refused to support a punitive 
conservation recommendation for eastern Atlantic and 
Mediterranean bluefin tuna proposed by the European Community, 
a measure that would have allowed serious overfishing to 
continue for several years. In previous years the United States 
had agreed to such measures, in essence believing that a bad 
management measure was better than no measure at all, but this 
changed in 2001 when the United States delegation was unanimous 
in not supporting the proposed measure. The lack of consensus 
and plenary precipitated a vote from the floor, but without a 
quorum, the meeting ended in a meltdown and many of the pending 
conservation measures had to be adopted by a mail vote.
    Last year promised to be an extremely busy year for ICCAT 
with assessments of western and eastern bluefin tuna, North 
Atlantic and South Atlantic swordfish, bigeye tuna, and white 
marlin. The United States came to the Commission meeting last 
year in Bilbao, Spain, ready to propose conservation measures 
for each of these stocks.
    However, fallout from the previous year's meeting prevented 
us from attaining several of our objectives. The conduct of the 
ICCAT meeting changed. Upon our arrival, the U.S. Commissioners 
were informed that there would be limited discussion of country 
positions in plenary session and that all measures would be 
linked together in a single package to be voted up or down. If 
necessary, there would be votes, but it was made quite clear 
that the votes would not favor the U.S. positions. In order to 
ensure that conservation measures continued on white marlin, a 
species that was petitioned to be listed under the Endangered 
Species Act, the United States had to agree to catch limits on 
the other stocks that were far from our conservation targets.
    I must note here that it was only through the tenacity of 
our Commissioners that the catch limits were not higher. They 
did a commendable job under very difficult circumstances, but 
clearly the change in meeting conduct limited our ability to 
influence conservation measures for several stocks.
    The U.S. ICCAT Advisory Committee is also concerned about 
the general lack of compliance by several parties to binding 
ICCAT conservation measures. For the past 6 years, a major 
focus of the U.S. delegations to ICCAT has been to develop, 
implement, and fine-tune a transparent process that ensures 
compliance with Commission catch limits, size limits, and other 
conservation measures. Each year parties are to submit their 
compliance tables prior to the start of the Commission meeting.
    Compliance with this requirement has been abysmal. Only a 
few tables are available at the start of the meeting, and many 
that are submitted late do not contain the information 
necessary to evaluate compliance. This is especially true for 
determining compliance with minimum size limitations. It would 
appear that a member can simply avoid compliance by not 
submitting the required data.
    The effects of the failure to submit data in a timely 
manner, if at all, is not limited to the compliance committee. 
It is a problem that is undermining the very foundation of 
ICCAT. Over the past few years, the lack of data has 
compromised several stock assessments by ICCAT's Standing 
Committee for Research and Statistics. Without such data, 
scientists are forced to make estimates about the total 
landings and size composition for nonreporting countries. This 
adds considerable uncertainty to stock assessment and the 
resulting scientific advice that is critical for fisheries 
management.
    Of even greater concern is the realization that some 
countries may be submitting data of dubious quality. The 
Commission must ensure compliance with the timely submission of 
accurate data, the most fundamental responsibility for any 
nation that is a member of ICCAT.
    Despite these many challenges ICCAT faces, it has made 
considerable progress over the past several years and the 
United States has played a major role in these advances. These 
include the rebuilding of North Atlantic swordfish, the 
implementation of a compliance regime, and the development of 
positive and negative fishing vessel lists that will hopefully 
close foreign markets to those who engage in illegal fishing 
practices. To be sure, progress is frustratingly slow at ICCAT, 
but it is the only game in town and we must make it work.
    This year we will be taking a well-honed team to Dublin. 
The three U.S. Commissioners have proven to be determined and 
tireless negotiators for the U.S. positions. They will be 
supported by competent and dedicated staff comprised of 
individuals from NMFS, NOAA, the Department of State, and the 
U.S. ICCAT Advisory Committee. We will undoubtedly encounter 
stiff opposition in the pursuit of our objectives. But when the 
dust is finally settled, I fully expect that we will once again 
have made progress toward the conservation and sound management 
of these pelagic resources.
    Thank you, Mr. Chairman and members of the Subcommittee.
    Mr. Faleomavaega. Thank you, Dr. Graves.
    [The prepared statement of Dr. Graves follows:]

  Statement of John E. Graves, Ph.D., Chair, Department of Fisheries 
 Science, Virginia Institute of Marine Science, College of William and 
               Mary, Chair, U.S. ICCAT Advisory Committee

    Mr. Chairman and Members of the Subcommittee, thank you for 
providing me the opportunity today to present testimony regarding the 
upcoming 18th Regular Meeting of the International Commission for the 
Conservation of Atlantic Tunas (ICCAT) in Dublin, Ireland. I am Dr. 
John E. Graves, Chair of the Department of Fisheries Science at the 
Virginia Institute of Marine Science, College of William and Mary. I am 
also Chair of the U.S. ICCAT Advisory Committee and have served in that 
capacity for the past eight years.
    The U.S. ICCAT Advisory Committee met from Sunday through Tuesday 
of this week to consider the assessments and recommendations of ICCAT's 
scientific body, the Standing Committee for Research and Statistics 
(SCRS), and to discuss a variety of issues and options that the United 
States could propose at this year's Commission meeting. The ICCAT 
Advisory Committee's informed deliberations historically provide a 
starting point for the development of U.S. positions at ICCAT. This 
year the Committee noted many items of high priority for the United 
States to pursue in Dublin, and it also discussed many of the 
challenges that we will likely face in achieving our objectives.
    For the past several years we have been vocal advocates at ICCAT 
for conservation and sound fisheries management, but we have faced 
serious opposition from other members of the Commission. Late on the 
last day of the 2001 Commission meeting in Murcia, Spain, the United 
States refused to support a putative conservation recommendation for 
eastern Atlantic and Mediterranean bluefin tuna proposed by the 
European Community, a measure that would have allowed serious 
overfishing to continue for several years. In previous years the United 
States had agreed to such measures, in essence believing that a bad 
management measure was better than no measure at all. But this changed 
in 2001 when the U.S. delegation was unanimous in not supporting the 
proposed measure. The lack of consensus precipitated a vote from the 
floor, but without a quorum, the meeting ended in a meltdown, and many 
of the pending conservation measures had to be adopted by a mail vote.
    Last year promised to be an extremely busy year for ICCAT, with 
assessments of western and eastern Atlantic bluefin tuna, North 
Atlantic and South Atlantic swordfish, bigeye tuna, and white marlin. 
The United States came to the Commission meeting in Bilbao, Spain, 
ready to propose conservation measures for each of these stocks; 
however, fallout from the previous year's meeting prevented us from 
attaining several of our objectives. Upon our arrival the U.S. 
Commissioners were informed that there would be limited discussion of 
country positions in plenary, and that all measures would be linked in 
a package. If necessary, there would be votes, but it was made quite 
clear that the votes would not favor the U.S. positions. In order to 
ensure that conservation measures continued on white marlin, a species 
that was petitioned to be listed under the Endangered Species Act, the 
United States had to agree to catch limits on the other stocks that 
were far from our conservative targets. I must note here that it was 
only through the tenacity of our Commissioners that the catch limits 
were not higher. They did a commendable job under very difficult 
circumstances. Clearly, the change in meeting conduct limited our 
ability to influence conservation measures for several stocks.
    The U.S. ICCAT Advisory Committee is concerned about the general 
lack of compliance by several parties to binding ICCAT conservation 
measures. For the past six years a major focus of the U.S. delegations 
to ICCAT has been to develop, implement, and fine-tune a transparent 
process that ensures compliance with Commission catch limits, size 
limits, and other conservation measures. Each year parties are to 
submit their compliance tables prior to the start of the Commission 
meeting. Compliance with this requirement has been abysmal. Only a few 
tables are available at the start of the meeting, and many that are 
submitted late do not contain the information necessary to evaluate 
compliance. This is especially true for determining compliance with 
minimum size limitations. It would appear that a member can simply 
avoid compliance by not submitting the required data.
    The effects of the failure to submit data in a timely manner, if at 
all, is not limited to the Compliance Committee. It is a problem that 
is undermining the very foundation of ICCAT. Over the past few years 
the lack of data has compromised several stock assessments by ICCAT's 
Standing Committee for Research and Statistics. Without such data, 
scientists are forced to make estimates about the total landings and 
size composition for non-reporting countries. This adds considerable 
uncertainty to the stock assessment and the resulting scientific advice 
that is critical for effective fisheries management. Of even greater 
concern is the realization that some countries may be submitting data 
of dubious quality. The Commission must ensure compliance with the 
timely submission of accurate data--the most fundamental responsibility 
for any nation that is a member of ICCAT.
    Despite the many challenges ICCAT faces, it has made considerable 
progress over the past several years and the United States has played a 
major role in these advances. These include the rebuilding of the North 
Atlantic swordfish stock, the implementation of a compliance regime, 
and the development of positive and negative fishing vessel lists that 
will close foreign markets to those who engage in illegal fishing 
practices. To be sure, progress is frustratingly slow at ICCAT, but it 
is the only game in town and we have to make it work.
    This year we will be taking a well-honed team to Dublin. The three 
U.S. Commissioners have proven to be determined and tireless 
negotiators for the U.S. positions. They will be supported by a 
competent and dedicated staff comprising individuals from NMFS, NOAA, 
the Department of State, and the U.S. ICCAT Advisory Committee. We will 
undoubtedly encounter stiff opposition in the pursuit of our 
objectives, but when the dust has finally settled I fully expect that 
we will once again have made progress towards the conservation and 
sound management of these pelagic resources.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Faleomavaega. I would like to hear from Dr. Wilmot now. 
And welcome Mr. Moore, who has just made it.

  STATEMENT OF DAVID B. WILMOT, JR., MEMBER OF THE U.S. ICCAT 
           ADVISORY COMMITTEE, RISING TIDE CONSULTING

    Dr. Wilmot. Mr. Chairman and members of the Subcommittee, 
my name is David Wilmot, and I appreciate this opportunity to 
testify today. For the past decade, I have worked to improve 
the conservation and management of Atlantic and Pacific 
migratory fish. I serve as a member of the U.S. ICCAT Advisory 
Committee and have served on the U.S. delegation to ICCAT 
numerous times.
    Looking to the upcoming ICCAT meeting and beyond, there are 
several issues that will require the United States' attention. 
In my written testimony I described the conservation 
community's priorities in detail, but today I would like to 
focus only on our top priority, the conservation of white and 
blue marlin.
    At the risk of repeating some of the important points 
already made, however, I would like to share a few 
observations. During my years of involvement, I have seen many 
changes at ICCAT. While progress has been made, the Commission 
continues to struggle to control overfishing and protect the 
fish and fisheries under its purview.
    ICCAT's list of managed species is a who's who of 
overexploited fish. With the exception of North Atlantic 
swordfish, which are under an effective rebuilding plan and 
making rapid recovery, many species, including marlin and 
bluefin tuna, stand at or near historic low population levels.
    To its credit, the United States has been the leading voice 
for conservation and sustainable fisheries at ICCAT. The United 
States has consistently gone to ICCAT and demonstrated its 
commitment to conservation. While we have not agreed on every 
position taken by the U.S., the environmental community has 
agreed with most, and we recognize that current ICCAT 
conservation measures would not exist without the strong and 
determined leadership of the United States. Yet in too many 
instances, ICCAT's conservation and management measures have 
fallen short of what was needed because we were thwarted by 
other ICCAT members.
    You have heard speaker after speaker today describe the 
problem of noncompliance and heard a rising tide of 
frustration. We share the frustration, and we agree that it is 
time to act. I will simply--rather than go into the details 
that have already been well articulated, Mr. Delaney I think 
really hit it on the head: that until there are painful 
consequences, these countries will not change how they do 
business. There is no reason for them to change how they do 
business, and many good ideas were articulated here today that 
we endorse.
    We believe that the top priority of the United States at 
ICCAT over the next few years is the conservation of Atlantic 
billfish. Because of the dire condition of these fish and the 
difficult challenge of managing a bycatch species, halting 
overfishing and rebuilding marlin populations will require 
continued aggressive leadership by the United States. 
Populations of blue and white marlin in the Atlantic are at 
historic lows. White marlin has the inauspicious distinction of 
being the most overfished and depleted ICCAT species. Although 
recently denied for listing as a threatened or endangered 
species, the white marlin remains a candidate for listing under 
the Endangered Species Act.
    Improving the conservation of marlin has been a slow and 
difficult process. Yet the United States, with strong support 
from the environmental, recreational and commercial sectors, 
has won some hard-fought advances. It remains unclear if the 
measures are enough to halt overfishing. Moreover, as with 
every ICCAT measure, compliance is a problem. Nevertheless, 
even prohibiting all landings for marlin and achieving perfect 
compliance would not necessarily recover these species, as they 
will continue to be caught and killed when commercial 
longliners and purse seiners are fishing for swordfish and 
tuna.
    The conservation community believes that the only viable 
method of recovering marlin stocks in the Atlantic is a 
combination of strict landing limits and international time-
area closures where marlin congregate to feed and spawn. The 
United States is already successfully using this approach 
domestically. I will also add that we do not have any illusions 
as to the difficulty of this within ICCAT and would add that 
gear modifications are also going to be an important part of 
moving this forward.
    But the bottom line is that U.S. fishermen, recreational 
and commercial, have led by example in billfish conservation. 
It is now time to demand more from other nations fishing in the 
Atlantic who are responsible for over 95 percent of the marlin 
mortality.
    The next ICCAT stock assessment for marlin is not until 
2005. Considering the slow pace of progress at ICCAT, 2005 is 
just a moment away; therefore the next three meetings beginning 
this year will be critical to the future of marlin. Advancing 
international longline closures at ICCAT will take dedicated 
and prolonged leadership from the U.S. because most other 
countries are opposed to placing restrictions on their longline 
fleets in order to conserve ICCAT species. In fact, there will 
be continued resistance of all marlin conservation measures by 
several key ICCAT members. Protecting current conservation 
measures and achieving additional ones including time-area 
closures will be difficult but necessary to protect marlin. We 
ask Congress and the Administration to make marlin conservation 
a top priority between now and 2005. Our united mission must be 
to get the strongest possible conservation of blue and white 
marlin, including a long-term rebuilding plan.
    The United States must continue to help fishery officials 
from other countries understand how important billfish are to 
U.S. citizens and to the U.S. economy and give marlin the same 
level of attention and determination that has been enjoyed by 
bluefin tuna and swordfish in past meetings.
    Thank you for this opportunity to testify and for 
considering my views.
    Mr. Faleomavaega. Thank you, Dr. Wilmot.
    [The prepared statement of Dr. Wilmot follows:]

     Statement of David Wilmot, Ph.D., Member, U.S. ICCAT Advisory 
        Committee, Co-Founder/Principal, Rising Tide Consulting

    Mr. Chairman, my name is David Wilmot and I appreciate this 
opportunity to testify regarding the United States participation in the 
International Commission for the Conservation of Atlantic Tunas 
(ICCAT). I will focus my testimony on issues of importance to the 
conservation community and our suggested priorities for the United 
States at this year's ICCAT meeting in Dublin, Ireland.
    I am the co-founder and principal of Rising Tide Consulting. For 
the past decade I have been actively working to improve the 
conservation and management of Atlantic highly migratory fishes, in 
particular Atlantic highly migratory species (HMS). I served as 
Director of the Ocean Wildlife Campaign, a coalition of environmental 
organizations and leading voice for conserving big fish, from 1995 
through 2002. I currently serve as a member of the ICCAT Advisory 
Committee, as well as NMFS' HMS Advisory Panel, and have served on the 
U.S. Delegation to ICCAT numerous times.
    During my years of involvement, I have seen many changes at ICCAT. 
While progress has been made on specific fronts, the Commission 
continues to struggle to control overfishing and protect the fish and 
fisheries under its purview. ICCAT's list of managed species is a Who's 
Who of overexploited fish. With the exception of North Atlantic 
swordfish, which are under an effective rebuilding plan and making a 
rapid recovery, many species, including marlin and bluefin tuna, stand 
at or near historic low population levels. In addition, compliance with 
fundamental Commission obligations including data collection and 
reporting, as well as critical conservation measures such a quota 
limits, remains poor, and, in some cases, is actually getting worse.
    While ICCAT's poor track record has brought its very credibility 
into question, to its credit, the United States has worked to 
strengthen the Commission and has been the leading voice for 
conservation and sustainable fisheries (Canada also deserves mention 
for a strong conservation record). The United States has consistently 
gone to ICCAT and demonstrated that its commitment to domestic 
conservation goals also applies internationally. While the 
environmental community has not agreed with every position taken by the 
United States, we have agreed with the majority of positions and 
recognize that current ICCAT conservation measures would NOT exist, 
without the strong and determined leadership of the United States. Yet, 
in too many instances ICCAT's conservation and management measures have 
fallen short of what was needed because we were thwarted by other ICCAT 
members. In many cases, key fishing parties such as the European 
Community and Japan block our efforts, or worse, they agree on paper 
but do not follow through in practice. The result is a rising tide of 
frustration among all sectors in the United States and ever increasing 
threats to the fish. The conservation community shares the frustration 
and wonders if ICCAT members will ever find the political will to do 
what is necessary. Yet, like the other sectors, my community remains 
committed to working to achieve management and conservation measures 
that will ensure sustainable Atlantic HMS fisheries.
    Looking to the upcoming meeting and beyond, there are several 
issues that will require the United States' attention. These include: 
(1) conservation of white and blue marlin; (2) continuing rebuilding of 
North Atlantic swordfish; (3) halting overfishing of bluefin tuna and 
rebuilding both eastern and western populations; (4) improving 
information on bycatch species including sharks; and last, but not 
least, (5) improving compliance with existing and future conservation 
and management measures.
Marlin Conservation
    We believe the top priority of the United States at ICCAT over the 
next few years is the conservation of Atlantic billfish, specifically 
blue and white marlin. Because of the dire condition of these fish, and 
the difficult challenge of managing a bycatch species, halting 
overfishing and rebuilding marlin populations will require continued 
aggressive leadership by the United States.
    Populations of blue and white marlin in the Atlantic are at 
historic lows. White marlin has the inauspicious distinction of being 
the most overfished and depleted ICCAT species. The white marlin 
population currently stands at only about 14% of the level needed to 
produce MSY and is being fished at a rate more than 8 times a 
sustainable level. Although recently denied for listing as a threatened 
or endangered species, the white marlin remains a Candidate Species for 
listing under the U.S. Endangered Species Act (ESA). In fact, another 
ESA review is scheduled for 2007. Blue marlin populations have also 
been reduced dramatically and continue to be subjected to overfishing.
    Improving the conservation of marlin has been a slow and difficult 
process, yet the United States, with strong support from the 
environmental, recreational, and commercial sectors, has won some hard-
fought advances. Current ICCAT regulations strictly limit landings and 
promote the voluntary release of marlin. These conservation measures 
have not been in place long enough for the SCRS to evaluate their 
effectiveness. Moreover, as with virtually every ICCAT measure, 
compliance is a problem. Nevertheless, even prohibiting all landings 
for marlin and achieving perfect compliance would not necessarily 
recover these species, as they will continue to be caught and killed 
when commercial long-liners and purse seiners are fishing for swordfish 
and tuna.
    The conservation community believes the only viable method of 
recovering marlin stocks in the Atlantic is a combination of strict 
landings limits and international time-area closures to longline and 
other indiscriminate fishing methods where marlin congregate to feed 
and spawn. The United States is already using this approach 
domestically to reduce marlin bycatch by closing known ``hot spots'' 
off the southeastern United States, and in the Gulf of Mexico. While 
designed primarily to reduce underage swordfish discards, preliminary 
results are encouraging for marlin--indicating the closures are 
effective in reducing bycatch mortality of blue and white marlin.
    The U.S. should continue to monitor the effectiveness of domestic 
time-area closures and make sure they remain in place (and are adjusted 
as necessary). We should also continue to investigate potential gear 
modifications that will minimize interactions with billfish and enhance 
the survival of released billfish. U.S. fishermen--recreational and 
commercial--have led by example in billfish conservation. It is now 
time to demand more from other nations fishing in the Atlantic Ocean 
because they are responsible for over 95% of the mortality of billfish 
mortality.
    The next ICCAT marlin stock assessment is not until 2005. At that 
time, Phase II of the so-called marlin rebuilding plan, which requires 
development of specific timetables to rebuild both white and blue 
marlin to levels that will support MSY, is scheduled to begin. 
Considering the slow pace of progress at ICCAT, 2005 is just a moment 
away. Therefore, the next three ICCAT meetings (beginning this year) 
will be critical to the future of white and blue marlin. Advancing 
international longline closures at ICCAT will take dedicated and 
prolonged leadership from the United States because most other 
countries are opposed to placing restrictions on their longline fleets 
in order to conserve bycatch species. In fact, there will be continued 
resistance to all marlin conservation measures by several key ICCAT 
members. Protecting current conservation measures and achieving 
additional ones including time-area closures will be difficult, but 
necessary to protect marlin.
    We ask Congress to insist that the U.S. delegation to ICCAT, at 
each meeting between now and 2005, including the upcoming ICCAT 
meeting, be united in its mission--to get the strongest possible 
conservation of blue and white marlin as part of a long-range billfish 
rebuilding program when the commission reviews the next scheduled 
assessment following the 2005 assessment and develops a long-range 
billfish rebuilding program.
Continue Rebuilding Swordfish
    All indications are that North Atlantic swordfish is on its way to 
recovery. In fact, the population may already have rebuilt to a level 
that can support MSY. While too early to declare complete victory, 
swordfish recovery is a true success story and one for which the United 
States--including conservationists and fishermen--deserve credit.
    While there is no new assessment this year and no action is needed 
on the rebuilding plan, a couple of issues deserve brief mention. 
First, as a result of the implementation of critical domestic measures 
to rebuild swordfish and minimize bycatch of undersized swordfish, 
bluefin tuna, sea turtles, and other species, the commercial (and 
recreational to a lesser extent) fleet has been undergoing a major 
transition. One result of this transition has been the inability of the 
United States fleets to catch the ICCAT-designated swordfish quota.
    We feel strongly that the United States should not be ``punished'' 
for taking necessary and effective measures to conserve swordfish and 
reduce bycatch. The United States should defend and protect the U.S. 
North Atlantic swordfish quota, (including all underages).
    In addition, if the United States pursues a change from the current 
ICCAT minimum size regulation, it should use the opportunity to 
highlight to other ICCAT members the potential benefits of time and 
area closures. We also suggest the United States make clear to other 
countries that all live, undersized fish will be released, the U.S. 
long-liners and only dead fish landed.
Improving Conservation of Bluefin Tuna
    The conservation community has not been happy with the risk-prone 
management that the United States has successfully advanced at ICCAT 
for Western bluefin tuna. As there is not a new assessment for Western 
bluefin tuna, and the quota is not open to discussion this year, this 
debate should wait for another day. There is, however, an important 
one-day meeting just prior to the Commission meeting in Dublin, 
Ireland, that is critically important for the future of bluefin tuna. 
Results presented to the ICCAT Advisory Committee by Stanford Professor 
Dr. Barbara Block on her excellent multi-year Tag-A-Giant Program 
provide important and compelling evidence that there are indeed two 
separate stocks of Atlantic bluefin tuna, and that more needs to be 
done to protect western bluefin, in particular on the feeding grounds 
in the central Atlantic. Without debating mixing models and spawning 
sites, let me simply say that the United States should begin what will 
be a long and difficult process of achieving a more ecologically 
realistic management strategy for bluefin tuna.
    We encourage the United States to continue the process of moving to 
more ecologically realistic management including support for moving the 
line to the east (to 30 degrees for example). However, we strongly urge 
more attention be paid to ensuring all actions are risk averse for the 
severely depleted and small western population (as compared to the 
depleted, but extremely large, population in east). The goal of 
management changes must be to improve the status of the western 
population and to speed potential recovery (as opposed to getting a 
quota increase in the west).
Compliance
    Continued lack of real progress on this issue has the potential to 
destroy ICCAT. I am certain that others will provide detailed testimony 
on ICCAT's many shortcomings in this area and present ideas for 
improvement. We have supported and will continue to support U.S. 
leadership as it works to bring member nations in line with fulfilling 
their obligations regarding data collection and reports, as well as 
adhering to quotas, landing limits, minimum sizes and all of other 
conservation measures. I will add that, until there is a legitimate 
consequence to bad behavior, ICCAT members (and more join every year 
because being a member has its benefits--fish without consequences) 
will continue to flaunt the rules. And considering some of the worst 
offenders hold leadership positions in the Commission, this is a 
difficult issue.
Sharks and Sea Turtles
    In recent years, we have urged the United States to introduce 
various resolutions designed to remind ICCAT members of their 
obligations (in most cases, FAO agreements) regarding species killed as 
bycatch in ICCAT fisheries, including seabirds, sharks, and sea 
turtles. The United States has shown leadership on this issue and has 
had some success. One such resolution on sea turtles will be up for 
adoption this year. We strongly encourage the U.S. Delegation to 
support the sea turtle resolution. All sea turtle species are listed as 
either threatened or endangered under the Endangered Species Act, and 
reducing bycatch in HMS fisheries should be treated with urgency to 
avoid the devastating leatherback declines we've seen in the Pacific. 
The United States has taken dramatic domestic measures to reduce turtle 
catch, but sea turtles cannot be saved without multilateral action. The 
United States has championed this issue, and we look forward to 
adopting the resolution this year.
    ICCAT is scheduled to perform its first-ever shark assessment in 
the spring of 2004. They plan to evaluate the population status of blue 
and mako sharks. Considering blue sharks are the most common bycatch 
species on pelagic longlines targeting tunas and swordfish, and the 
fact that shark species have proven to be particularly vulnerable to 
overfishing because of their life history characteristics, this 
assessment, while proactive, is long overdue. We encourage the U.S. 
Delegation to remind parties at this year's ICCAT meeting that they 
have a responsibility to provide catch data essential to complete the 
assessment. The assessment was originally scheduled for 2002 so the 
United States should also make sure that no additional delays occur.
Conclusion
    The conservation community urges Congress (and the Administration) 
to make marlin conservation the top priority at ICCAT through the 2005 
meeting. The United States must continue to help fishery officials from 
other countries understand how important billfish are to U.S. citizens 
and the U.S. economy, and give marlin the same level of attention and 
determination that is enjoyed by bluefin tuna and swordfish in the 
past.
    In addition to knowing what we want to accomplish, given the 
political milieu within ICCAT, we must have a coordinated strategy for 
achieving it. U.S. interests and Atlantic HMS needs an effective ICCAT. 
To repeat the current trends are simply not sustainable. An effective 
ICCAT will come about only if the United States and like-minded 
members, such as Canada, are even more successful in advancing their 
conservation agendas.
    I believe there are lessons to be learned from the European 
Community. Taking a page out of the EU's playbook, by developing a more 
aggressive, comprehensive, and long-term strategy to reshape HMS 
fisheries conservation and management at ICCAT and around the world may 
get us closer to an effective ICCAT. The EU is particularly effective 
at blunting our conservation efforts within ICCAT (how else could the 
fiasco that is eastern bluefin tuna management be described?), as well 
as other international fisheries management bodies. I believe that 
involvement of the U.S. Congress can help set and advance such a 
strategy. The conservation community looks forward to doing our part 
and helping the United States achieve real and lasting conservation for 
HMS at this meeting and in the future.
    Thank you for holding this hearing, for your interest in improving 
conservation through ICCAT, and for considering my comments.
                                 ______
                                 
    Mr. Faleomavaega. Mr. Moore.

 STATEMENT OF HERB MOORE, JR., DIRECTOR OF GOVERNMENT AFFAIRS, 
                 RECREATIONAL FISHING ALLIANCE

    Mr. Moore. Thank you, Mr. Chairman and members of this 
Committee. My name is Herb Moore. I am Counsel and Director of 
Government Affairs at the Recreational Fishing Alliance. I want 
to thank you for the opportunity to testify here this 
afternoon. It is truly an honor and a privilege to be here 
before you, and I want to apologize for arriving late. I ran 
into some difficulties this afternoon with buildings being on 
lockdown.
    The Recreational Fishing Alliance is a national grassroots, 
political action organization representing individual 
recreational fishermen and the recreational fishing industry. 
Our mission is to safeguard the rights of individual saltwater 
anglers, to protect jobs in the marine, boat and tackle 
industry, and to ensure the long-term sustainability of our 
Nation's saltwater fisheries.
    Atlantic HMS, as has been touched on a little earlier, have 
tremendous social and economic value to our Nation. Tens of 
thousands of individuals pursue HMS to enhance their quality of 
life, and a multi-billion-dollar industry depends on the health 
of these stocks. Commercial overfishing species such as blue 
and white marlin and bluefin tuna threatens to completely 
undermine this sector. Actions must be taken through ICCAT to 
prevent this from happening.
    The U.S. recreational fishing sector has a right to expect 
foreign governments to live up to their treaty obligations. 
Currently a number of contracting nations in ICCAT simply 
aren't living up to their obligations. The U.S. must take 
stronger steps to assert the interests of the recreational 
fishing industry at ICCAT.
    Most contracting nations at ICCAT have large commercial 
fisheries with small recreational components which largely 
aren't involved in the process. The U.S. has the opposite. We 
have a large recreational fishery with a smaller commercial 
fishery. This point must be recognized by the entire U.S. 
delegation, and it must be driven home to all ICCAT 
delegations. There is a major cultural and economic difference 
between the U.S. and other contracting nations.
    Recreational fishing is more than strictly fishing for 
sport or pleasure, and we would like to see that point driven 
home at ICCAT. To illustrate, according to the National Marine 
Fishery Service's HMS data base, there are currently 18,453 HMS 
angling permit holders and 4,078 HMS Charter/Headboat permit 
holders which carry recreational anglers, versus 298 swordfish-
directed or incidental longline permit holders here in the U.S.
    Now, by no means are we attempting to devalue the U.S. 
commercial fishery. We have a very strong relationship with 
East Coast Tuna, who was represented on this panel earlier, and 
a number of other commercial fishing organizations. In fact, we 
feel that working together is really how we are going to get 
our goals accomplished.
    However, we feel like they are actually a step ahead of us 
in the game in that they are recognized as an industry, they 
are recognized for their economic contribution to this Nation, 
and they are recognized for the jobs that are at stake, and the 
recreational fishing sector needs to be at that level. This 
recognition needs to be more than lip service. It needs to be 
reflected in policy, particularly policy at ICCAT.
    Our Nation has got a vast sector of boat builders that 
manufacture fishing vessels specifically geared toward 
targeting HMS. We have fishing tackle manufacturers that make a 
variety of goods that are specifically geared toward targeting 
HMS, all under the purview of ICCAT. Party and charter boat 
business regularly take clients out into U.S. waters to fish 
for HMS, generating millions of dollars in tourism for our 
coastal communities. Bait and tackle retailers sell goods, 
offer services to these anglers, generating a tremendous amount 
of money in this country. Marinas offer dockage, fuel, services 
to recreational fishing vessels targeting HMS.
    A variety of other businesses in coastal communities are 
also heavily dependent upon recreational fishing. For example, 
the Viking Yacht Company in New Gretna, New Jersey, in Mr. 
Saxton's district, employs over 1,200 people who build a 
hundred yachts a year specifically geared toward targeting HMS. 
There are also a number of annual HMS tournaments such as the 
Ocean City White Marlin open in Mr. Gilchrest's district, where 
over 400 recreational vessels fish each year targeting HMS, 
contributing over $20 million to Ocean City, Maryland in 1 
week. These fishermen have a strong voluntary conservation 
ethic and employ gear, rod-and-reel fishing gear, which 
traditionally hasn't led to overfishing. For example, 
recreational fishermen who target marlin release over 98 
percent of the fish they encounter.
    Last year the RFA filed a petition under Section 301 of the 
Trade Act of 1974, asserting that other nations' noncompliance 
with ICCAT is harming U.S. commerce and that these nations need 
to be pushed to comply with ICCAT under the threat of 
sanctions. We don't want to see sanctions on our friends, 
particularly in light of what else is going on in the world; 
however, we do want them to take ICCAT seriously. We want them 
to understand what conservation means to the recreational and 
the fishing industries in this country.
    The ICCAT convention is a trade agreement. It sets quotas 
and conservation measures which limit the harvest of HMS, 
limits and has an effect on the play of competitive market 
forces. Therefore, it is a trade agreement.
    Foreign noncompliance with ICCAT is a major burden on U.S. 
commerce, and this point cannot be overlooked. By severely 
reducing fishing opportunities for the recreational fishing 
industry, such as highly migratory species as white marlin and 
bluefin tuna become harder and harder to catch, the failure of 
foreign ICCAT signatories to comply with catch limits and 
quotas has resulted in increasing restrictions on U.S. 
Fishermen; for example, current regulations on our recreational 
fishermen to retain only one bluefin tuna per person per trip 
during a short season; one swordfish per person per trip, with 
a maximum of three per vessel; three yellowfin tuna per person 
per trip.
    Depleted stocks of HMS, because of foreign overfishing 
combined with these restrictions, have resulted in significant 
harm to the recreational fishing industry. Less fish plus more 
regulation equals significantly less participation. Less 
participation equals significantly less commerce for our 
Nation.
    Major U.S. commerce depends on the conservation of HMS. 
However, the U.S. has traditionally undervalued the U.S. 
recreational fishing sector. The U.S. must begin viewing ICCAT 
as a trade agreement as well as a conservation agreement, 
considering the impact that ICCAT has on U.S. Commerce. With 
this in mind, the U.S. must work to ensure that other nations 
are complying with ICCAT. There is a multi-billion-dollar 
recreational fishing industry at stake.
    We agree with some suggestions that were made earlier that 
a high-level trade office must be engaged in ICCAT to work with 
Dr. Hogarth and his team to achieve our goals. Grant Aldonis, 
Under Secretary of Commerce for International Trade, is engaged 
in the issue, and we feel like this is a level that it needs to 
be at, an international trade expert advocating for U.S. 
business, recreational and commercial.
    Finally, I would like to commend this Committee for passing 
H.Con.Res. 268. I feel like it is a fantastic step in the right 
direction and hopefully it can be a springboard to achieving 
our goals at ICCAT.
    Thank you again, and I would be happy to answer any 
questions that you may have.
    Mr. Faleomavaega. Thank you Mr. Moore.
    [The prepared statement of Mr. Moore follows:]

   Statement of Herb Moore, Jr., Counsel and Director of Government 
                 Affairs, Recreational Fishing Alliance

I. INTRODUCTION
    The Recreational Fishing Alliance (RFA) is a national, grassroots 
political action organization representing individual recreational 
fishermen and the recreational fishing industry. The RFA Mission is to 
safeguard the rights of saltwater anglers, protect marine, boat and 
tackle industry jobs, and ensure the long-term sustainability of our 
Nation's saltwater fisheries. RFA members include individual anglers, 
boat builders, fishing tackle manufacturers, party and charter boat 
businesses, bait and tackle retailers, marinas, and many other 
businesses in fishing communities.
    The Atlantic recreational highly migratory species (HMS) fisheries 
have tremendous social and economic value to the U.S. Tens of thousands 
of individuals enhance their quality of life by fishing for HMS and a 
multi-billion-dollar industry depends on the health of HMS stocks. 
Commercial overfishing of species such as blue and white marlin and 
bluefin tuna threatens to completely undermine this sector. Actions 
must be taken through ICCAT to ensure that this does not happen.
    The U.S. recreational fishing sector has a right to expect foreign 
governments to live up to their treaty obligations. A number of 
contracting nations have not lived up to their obligations under the 
International Convention for the Conservation of Atlantic Tunas 
(``ICCAT''). The U.S. must take stronger steps to assert the interests 
of the recreational fishing industry through ICCAT.
II. ECONOMICS OF RECREATIONAL HMS FISHERIES
    While recreational fishing for highly migratory species such as 
marlin, sailfish, swordfish and tuna is a specialized segment of the 
recreational fishing sector, it has a major impact on our Nation's 
economy and quality of life. Most contracting nations to ICCAT have 
large commercial fisheries with small recreational components. The U.S. 
is the opposite; we have large recreational fisheries with smaller 
commercial fisheries. This point must be recognized and driven home to 
all ICCAT delegations.
    To illustrate, according to the NMFS HMS database, there are 
currently 18,453 HMS Angling Permit holders and 4,078 HMS Charter/
Headboat Permit holders (which carry recreational anglers) vs. 298 
Swordfish Directed or Incidental Longline Permit holders.
    There is a vast segment of boat builders, fishing tackle 
manufacturers, party and charter boat businesses, bait and tackle 
retailers, marinas, and many other businesses in fishing communities 
which cater specifically to recreational fishermen who fish for 
Atlantic HMS. Individual anglers fish recreationally for marlin, 
sailfish, swordfish and tuna in U.S. waters to enhance their quality of 
life. Boat builders manufacture recreational fishing vessels that are 
specifically designed and primarily used to fish for the species under 
the purview of ICCAT. Fishing tackle manufacturers make a variety of 
goods that are used by recreational fishermen to fish for the species 
under the purview of ICCAT. Party and charter boat businesses regularly 
take clients out in U.S. waters to fish for the species under the 
purview of ICCAT. Bait and tackle retailers sell goods and offer 
services to recreational fishermen to fish for the species under the 
purview of ICCAT. Marinas offer dockage, fuel, and services to 
recreational fishing vessels that target the species under the purview 
of ICCAT. A variety of other businesses in coastal communities are 
heavily dependent on recreational fishing for the species under the 
purview of ICCAT.
    For example, the Viking Yacht Company in New Gretna, N.J., in Mr. 
Saxton's District employs over 1,200 people who build 100 yachts a year 
that are specifically designed and primarily used to target highly 
migratory species. There are also a number of annual Atlantic HMS 
tournaments such as the Ocean City White Marlin Open in Mr. Gilchrest's 
District that 400 recreational vessels fish each year generating over 
$20 million in one week for Ocean City, Md. Thus, a large segment of 
the recreational fishing industry is dependent on healthy stocks of 
highly migratory species.
    These fishermen have a strong, voluntary conservation ethic and 
employ sustainable, inefficient fishing gear that traditionally has not 
resulted in overfishing. In fact, recreational fishermen who fish for 
marlin release over 98% of the fish they catch believing that fishing 
for, hooking, fighting and releasing them to swim another day is a more 
valuable experience than killing the fish for consumption.
III. OVERFISHING BY THE EUROPEAN UNION
    The Recreational Fishing Alliance asserts that fishing pressure by 
the highly subsidized commercial longline vessels of the EU has placed 
certain highly migratory species of the Atlantic Ocean and adjacent 
seas at risk and resulted in violations of the International Convention 
for the Conservation of Atlantic Tunas (``ICCAT''), a trade treaty that 
permits the use of trade-related sanctions, and the WTO Agreement on 
Subsidies and Countervailing Measures (``Subsidies Agreement''). The 
actions of the EU have turned the International Convention for the 
Conservation of Atlantic Tunas into the International Convention for 
the Destruction of Atlantic Tunas. Less fish plus more regulation of 
U.S. fishermen equals significantly less participation in recreational 
fishing. Less participation equals significantly less commerce for the 
recreational fishing industry.
IV. WHY ICCAT IS A TRADE AGREEMENT
    The ICCAT Convention is a ``trade agreement'' within the meaning of 
Section 301 of the Trade Act of 1974. The domestic implementing 
legislation for the ICCAT Convention is the Atlantic Tunas Convention 
Act of 1975 (ATCA). This statute is listed in the ``Overview and 
Compilation of U.S. Trade Statutes'' published by the Committee on Ways 
and Means of the House of Representatives (emphasis added), underlining 
the fact that the ICCAT Convention is a type of trade agreement and the 
ATCA is the U.S. trade statute implementing the ICCAT Convention 
domestically.
    The ICCAT Convention is an international commodity agreement 
designed to conserve natural resources by limiting harvesting of fish 
through a total allowable catch (TAC) and individual participating 
country quotas. As such, the ICCAT Convention is an international 
commodity agreement that restricts the play of competitive market 
forces because of its form. The ICCAT Convention is a ``trade 
agreement'' because it restricts trade in the fish species that it 
covers. By limiting the volume of fish that may be landed from national 
vessels, the ICCAT Convention is restricting international trade in the 
covered species.
V. THE EUROPEAN UNION'S UNFAIR TRADE PRACTICES
    The RFA alleges that the EU has committed three unfair trade 
practices under Section 301 of the Trade Act of 1974, as amended:
    a)  it has acted unjustifiably by violating and acting 
inconsistently with the ICCAT Convention by noncompliance with the 
catch limits, quotas, and landing limits for certain species of HMS and 
rules for the protection of juvenile fish;
    b)  it has acted unreasonably by refusing to accept the 
determination of the scientific advisory body of ICCAT, the Standing 
Committee on Research and Statistics (SCRS), that the stock for East 
Atlantic bluefin tuna is over-exploited and that the total allowable 
catch (TAC) for East Atlantic bluefin tuna should be limited to 25,000 
metric tons, resulting in overfishing of East and West Atlantic bluefin 
tuna; and
    c)  it has provided subsidies to its fishing industry through its 
Common Fisheries Policy (CFP) and its funding mechanism, the Financial 
Instrument for Fisheries Guidance (FIFG), that violate and are 
inconsistent with the WTO Subsidies Agreement adopted by the EU and the 
United States in the Uruguay Round of Multilateral Trade Negotiations.
    These unfair trade practices are related because they are all part 
of a common scheme by the European Union. The subsidies granted by the 
European Union to its fishing sector have contributed to increasingly 
large fleets that participate in unsustainable and illegal fishing in 
the Atlantic Ocean and adjacent seas. The injection of 1.1 billion 
Euros of public money into the fisheries sector each year in the EU 
represents a significant proportion of the value of the total Community 
production (7 billion Euros for fish landings). About $440 million a 
year has been contributed by the EU and national governments to the 
fisheries sector in subsidies that contribute to reducing the costs of 
the investment of the fisheries sector and thus contributes to 
overfishing.
    Twenty-four percent of the structural aid provided by the EU to its 
fisheries sector, or about 160 million Euros a year, has been used to 
promote investment in the modernization or renewal of fishing vessels, 
while 280 million Euros per year are paid for the right of about 850 EU 
vessels to fish outside EU waters under fisheries agreements with non-
European third countries. The overcapacity in EU fleets has, in turn, 
resulted in overexploitation by the EU of HMS. The trade-distorting EU 
fishing subsidies have had adverse effects on the U.S. commercial and 
recreational fishing industries, resulting in serious prejudice to the 
interests of the United States.
    That EU subsidies for its fishing sector have led to overfishing 
has been recognized by the EU Commission, which has stated bluntly 
that, ``if current trends continue, many stocks will collapse. At the 
same time, the available fishing capacity of the Community fleets far 
exceeds that required to harvest fish in a sustainable manner.'' (See 
ICCAT, 1999 Detailed Report--Swordfish, available at http://
www.iccat.es/, under ``Assessment and Biology,'' Species Groups, at 
Table 29.) Fueled by its subsidized overcapacity, the EU has violated 
and acted inconsistently with the ICCAT Convention by failing to ensure 
that vessels registered under its laws fish in a manner that is 
consistent with ICCAT conservation and management measures relating to 
East Atlantic bluefin tuna, North Atlantic swordfish, Atlantic white 
marlin, and Atlantic blue marlin, all of which are highly migratory 
species.
    The EU has violated the ICCAT Convention by failing to enforce 
binding ICCAT recommendations related to the catch of juvenile 
swordfish and bluefin tuna. For example, despite a tolerance level set 
at 15% of total landings for undersize fish, in 1998 Spain had a 
landing percentage of juvenile North Atlantic swordfish of 37% and 
Portugal had a landing percentage of 39.5%. Thus, Spain and Portugal 
caught more than twice as many juvenile swordfish as permitted under 
ICCAT rules.
    The EU has acted inconsistently with the ICCAT Convention by 
overfishing East Atlantic bluefin tuna in contravention of the 
recommendations of ICCAT's Standing Committee on Research and 
Statistics (SCRS). Such overfishing not only affects East Atlantic 
bluefin tuna stocks but also West Atlantic bluefin tuna stocks because 
there is significant mixing between the ``two stocks.'' The 
unwillingness of the EU to accept the scientific advice of the SCRS of 
ICCAT is part of the pattern of systematic fixing of Total Allowable 
Catch for fish by the EU members at levels higher than indicated in the 
scientific advice provided to the EU from experts within the EU.
    The EU's actions have placed excessive pressure on several HMS, 
including the Atlantic white marlin, which is at approximately 15% of 
the maximum sustainable yield (MSY) level. Drastic remedial action at 
the international level forced by the United States is required because 
the level of catch of white marlin by the U.S. domestic vessels 
operating under the catch-and-release policy is only 5% of the total 
mortality for Atlantic white marlin.
VI. BURDEN ON U.S. COMMERCE
    The unjustifiable and unreasonable practices of the EU have 
burdened U.S. commerce by severely reducing fishing opportunities for 
the recreational fishing industry as highly migratory species such as 
the white marlin and bluefin tuna become harder and harder to catch. 
Moreover, the failure of foreign ICCAT signatories to comply with catch 
limits and quotas has resulted in increasing restrictions on U.S 
recreational fishermen related to volume of fish they are allowed to 
land in the United States.
    For example, current regulations allow recreational fishermen to 
retain only one bluefin tuna per person per trip during a short season; 
current regulations allow recreational fishermen to retain only three 
yellowfin tuna per person per trip; current regulations allow 
recreational fishermen to retain only one swordfish per person per trip 
and a maximum of only three per vessel.
    Depleted stocks of HMS combined with these restrictions have 
resulted in significant harm to the recreational fishing industry; Less 
fish plus more regulation equals significantly less participation and 
less participation equals significantly less commerce.
VII. CONCLUSION
    Major U.S. commerce depends on the conservation of HMS. However, 
the U.S. has traditionally undervalued the U.S. recreational fishery. 
The U.S. must begin viewing ICCAT as a trade agreement as well as a 
conservation agreement considering the impact that ICCAT has on U.S. 
commerce. With this in mind, the U.S. must work to ensure that other 
nations are complying with ICCAT quotas and conservation measures. 
There's a multi-billion-dollar recreational fishing industry at stake.
                                 ______
                                 
    Mr. Faleomavaega. I thank the members of the panel for 
their testimonies. I do have a couple of questions.
    And Dr. Graves, I suppose in listening to the testimony, it 
makes me want to go back to square one, the fact that we 
started this whole adventure 30 years ago with some reasoning 
behind it. And I am being somewhat simplistic in my 
observations of the fact that the Atlantic Ocean is a huge 
ocean, and--I am curious--do we have any recreational fishing 
people from Europe come and fish in our waters for reasons why 
we have some sense of freedom in doing this activity? I am 
curious.
    When Mr. Moore says--and I know this--that the recreational 
fishing industry is a multi-billion-dollar industry, I don't 
know if it is the same standing with our commercial fishing 
industry, but it is in the billions of dollars, the services, 
the people that make the fishing rods, the boat builders and 
all of this.
    I was wondering, as Chairman of the ICCAT Advisory 
Committee, Dr. Graves, I want to go back to square one. Why are 
we with ICCAT in the first place if they are giving us a hard 
time?
    Dr. Graves. The alternative isn't workable. ICCAT is the 
only forum we have for doing this. These are highly migratory 
species. We can't just pull out and expect that these fish are 
going to be managed. Our impact on these resources is generally 
less than 5 percent of the landings per species. So if we want 
to continue to have access to these resources, we have to work 
with the other countries. We have to convince them that 
conservation is in their best efforts. So I don't think pulling 
out of ICCAT is an option.
    The frustrations that we have had dealing with it in the 
trenches--and like Mr. Delaney, this will be my ninth meeting, 
ICCAT meeting--and, you know, as a professor I am donating my 
time to do this and I am losing hair on the top of my head from 
slamming into the brick wall, I can assure you. But we are 
making some progress, and over this time I think we have done 
things that are the first time ever accomplished in 
international fora with our compliance, now getting a positive 
list. We are making headway, but it takes a lot of energy to do 
it.
    We are hoping that through Congress and through our current 
Administration, that at a higher level some of the intransigent 
nations can be softened up a bit before we go over there, and 
that is where you can help.
    Mr. Faleomavaega. When you mention higher levels, do you 
mean to the highest levels of the Administration?
    Dr. Graves. I do indeed.
    Mr. Faleomavaega. And the Cabinet level, perhaps the 
Secretary of Commerce and the Secretary of the Interior, along 
with the President, to really make this point hit home.
    Dr. Graves. Yes. The Atlantic Tunas Convention Act is 
centered between the Departments of Commerce and State and I 
think that we should get all the help we can if we are going 
to--I mean, the United States is clearly doing more than its 
share and I think, as Mr. Delaney and Mr. Genovese pointed out, 
we oftentimes make--domestically we enact reductions for our 
fishermen and then we go on over to ICCAT, and in that forum to 
negotiate for other countries to take reductions, we have to 
take them again. So in effect our fishermen have taken two cuts 
and they have done that to preserve the resource.
    But we are getting to a point now with some of our stocks 
that we are fishing on that our take is minimal. For instance, 
with the blue and white marlin, you know, between commercial 
and recreational landings, where there are no commercials, our 
recreational landings are limited to 250 fish, blue marlin and 
white marlin combined, in the United States for the year.
    I don't know how Dr. Hogarth counts those, but consider the 
range over which those fish can be caught. That is a really 
difficult task, but you compare that with thousands and 
thousands of fish which are landed by other nations.
    Mr. Faleomavaega. This is what makes it somewhat 
contradictory. Here we say we count for 250 marlins, but when 
we ask other countries to come up with the same count, they 
simply say we don't have a count; and in the meantime they 
might be taking thousands of marlins, which makes the ICCAT 
standards process very unfair, unfair not only to our own 
industry but unfair to us as a country. I am troubled by it 
because there seems to be a double standard.
    I know the same problem that we have with our purse seiners 
in the Pacific when we ask them to put observers, we ask them 
that their purse seining process limit the catch of dolphins. 
Tell that to the other countries of the world and it is almost 
like kissing the wind. They just seem very indifferent. They 
don't even seem to show any care at all about conservation.
    So I am troubled by it. We are putting a high standard 
among our commercial fishing industry. Recreational fishing 
people limit the amount of catch. We go to the table and our 
friends from Europe can completely just simply say we won't 
have any of it.
    Now, if you were in my shoes or the members of this 
Committee, what would you recommend? I am for sanctions just as 
recommended by Congressman Saxton in his resolution, and I 
don't know if this is somewhat of a fear tactic. To me it is 
not a fear tactic. It is just simply trying to be fair, on a 
level playing field, and I just feel that we have been 
shortchanged all these years, and I think we have had enough of 
it.
    I mean, I commend you and the members of the Commission to 
go there and bargain and negotiate, but it seems that more and 
more we are not getting our fair share of the action. And I 
feel very strongly that if we don't do it now, it is going to 
continue to affect negatively not only our recreational fishing 
industry but other parts of our economy that are going to be 
directly affected negatively.
    So your suggestion that we don't participate in ICCAT, I am 
curious, the Atlantic seaboard, how many square miles are we 
talking about? Somebody mentioned 20 million square miles that 
ICCAT is responsible for. I kind of like to count all the way 
from Maine down to Florida. How many square miles of coastal 
line that is part of our zone that we can control, and I assume 
that beyond that, it is under international waters and anybody 
is fair catch.
    Dr. Graves. That is true. And I still think that within 
ICCAT the way to go, as Mr. Delaney and Mr. Hayes said before, 
is with market controls. If we can shut down the markets for 
the countries that are not fishing in order with ICCAT 
conservation measures, if they don't have a market for their 
product they are not going to continue to fish for it.
    Most--you know, in some instances with the EC, there is a 
large domestic consumption, but a large amount of the product 
that is caught is export. And so if we can shut it down, then 
they don't have a reason to fish for it.
    Mr. Faleomavaega. Do you strongly recommend that?
    Dr. Graves. I would indeed.
    Mr. Faleomavaega. Shut down any imports that come from the 
ICCAT member countries to this country to show that we are 
serious about them complying with ICCAT standards. All right.
    Mr. Moore, as the great disciple of the recreational 
fishing industry, when you say multi-billion-dollars, how many 
billion of dollars are you really talking about?
    Mr. Moore. We are talking about approximately $60 billion 
just for the saltwater sector. Fresh and saltwater recreational 
fishing is estimated to contribute $112 billion to our Nation's 
economy.
    Mr. Faleomavaega. This is not just the Atlantic but also 
the Pacific and the Gulf States, so this is nationwide?
    Mr. Moore. Nationwide.
    Mr. Faleomavaega. I see. And how much do you think because 
of ICCAT's lack of cooperativeness and being helpful to our 
recreational fishing industry--how much are we losing on 
account of ICCAT's inability to cooperate or to measure up to 
the standards that we expect them to do?
    Mr. Moore. I think it is a tremendous amount. You know, we 
have given a lot of thought at the Recreational Fishing 
Alliance. It is difficult to come up with an exact number but 
it is certainly in the billions. I tried to touch on it a 
little bit in my testimony that the noncompliance from our 
partners is leading to less fish in the ocean. Recreational 
fishing as far as it goes is--it is an opportunity sport. It is 
an opportunity business. If the opportunity is there, it is 
going to flourish. If the opportunity isn't there, it is going 
to diminish. People are going to do something else. Businesses 
are going to close. So what we have got is with less fish, less 
opportunities, more regulations, it is an industry that is 
being stifled.
    So I would really be guessing if I came up with a 
particular number. I don't want to do that in your Committee, 
but I would venture to say it is upwards in the billions.
    Mr. Faleomavaega. Can you do us a favor by going through 
your statistical people? Because it really is important for our 
Committee to know. I don't want to hazard a guess, no more than 
if I am confronted from my other members who say, how much are 
we really talking about? I think specific numbers would really 
be helpful to the Committee.
    Mr. Moore. Absolutely.
    Mr. Faleomavaega. Dr. Wilmot, you mentioned something about 
putting restrictions in landing and another suggestion by Dr. 
Graves. I really, sincerely hope that on your return from your 
meeting in Dublin, and as we have gotten the promise of our 
Chairman that we will hold a follow-up hearing on this, please 
do come up with these recommendations. I think it would be 
really helpful to us. I thought maybe the Chairman was here but 
he hasn't come in.
    But, Dr. Wilmot, you did mention something about strict 
landing measures, so how do you suggest that we go about doing 
this?
    Dr. Wilmot. I was referencing white and blue marlin, and 
the Commission has already adopted strict landing requirements. 
Large reductions are called for for both white marlin and blue 
marlin. As Dr. Graves mentioned, the United States is limited 
to 250 fish. Other nations simply have to do percentage 
reductions.
    The key there is going to be compliance: Are we going to 
have the data that are necessary to know what is truly being 
landed and therefore know whether or not reductions are being 
made? And then will we have the data to do an appropriate 
assessment to know what the impacts of the reductions are?
    However, the point I was trying to make is that even if all 
landings are prohibited for marlin, you cannot rebuild the 
populations. It just doesn't work. It is a bycatch species, the 
gears interacting with them, and the mortality that is high 
enough that the fish are going to die on the hooks or the purse 
seine nets. Therefore, additional measures are going to be 
needed.
    Today both gear modifications have been talked about as 
well as the potential of time-area closures. I think that both 
will be needed. The point is both will be resisted, as well as 
landings. Marlin is not a priority for these other countries. 
They really don't care. If they didn't interact with marlin, it 
would be no loss for them. But they are interacting and they 
are killing a lot of marlin. They may not care, but U.S. 
recreational fishermen care very much. So additional measures 
are going to need to be taken.
    The United States has had a very difficult time elevating 
the status of marlin, if you will, to the level of a tuna or a 
swordfish. The U.S. has worked extremely hard. Commercial and 
recreational sectors have worked together to help do this. This 
has to be continued. We know it is a difficult task, and that 
is why we recommend it is a multi-year process that just 
continues.
    Even though 2005 is the number down the road for when 
action will happen and changes can occur, we can't wait until 
the last year. Every opportunity, we have to try to advance 
this. The U.S. has been the champion on marlin. We are just 
asking the U.S. to have a coordinated strategic plan for 
remaining the champion to take us even farther. I am very proud 
of what we have been able to accomplish on marlin, but it is 
not going to be enough. We have to do more.
    Mr. Faleomavaega. Years ago my father-in-law participated 
in an international billfish tournament in Kerns, Australia, 
and he is a member of the 1,000 pound--he caught a black marlin 
over a thousand pounds, and the fish was a monster. I couldn't 
believe how big.
    I am going to let my good friend, the gentlewoman from 
Guam, to ask some questions and I will hold for now.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I 
certainly enjoy having this public hearing all to ourselves. 
After hearing all of the witnesses today, we do have a problem, 
and someone had said--I think they asked the question do you 
think the U.S. should step away from this organization or its 
leadership role that we are taking? And I think someone 
answered that and said no, it wouldn't be the way to go.
    I personally have led international organizations in my 
lifetime, and I realize it takes, number one, patience; and you 
must proceed with caution because you are dealing with all 
these international countries, and we have problems everywhere 
today so you have to be very careful. And I do admire the 
U.S.'s participation and the leadership.
    Dr. Graves, I want to compliment you on your testimony. You 
highlighted the problems with respect to the effectiveness of 
compliance and because of the failure of ICCAT members to 
report data in a timely manner and an accurate manner. So the 
questions we have to deal with are how best to attack the 
problems of noncompliance and nonreporting? I am curious to 
learn what penalties or consequences are presently out there 
for ICCAT to utilize in confronting a member's lack of 
cooperation.
    Can you enlighten us about what ICCAT does collectively, if 
anything, in penalizing nonreporting members? Do these members 
lose any voice in the decisionmaking process? Is their voting 
authority diluted or compromised by their failure to report? 
And also part of this question is what specific recommendation 
or advice do you have for tackling the reporting and the data 
issues?
    Dr. Graves. That is a very perceptive question. First of 
all, there aren't any penalties associated, really, with 
nonreporting and that is the problem. I mean, you think if you 
join this organization, you are beholden to that. That is a 
basic responsibility is to report your catch, your effort, the 
size and distribution of your catch, so we can go ahead and the 
scientists can perform the stock assessment.
    But what the United States would like to do, and certainly 
a push and discussion at the Advisory Committee meeting this 
week, was to try and tie in a lot of these things that we take 
for granted that if they are not doing it that that would 
threaten the country's ability to have their vessels on the 
positive list; so, in other words, their vessels could not 
unload or export their product.
    So rather than just having it simply for a fishing 
violation, a country would also--its vessels would be at risk 
if the country wasn't meeting its obligations in terms of 
reporting data in a timely and accurate fashion. So I think, as 
was mentioned in the first panel here, that will be a big next 
step for ICCAT. But considering what is happening now, if this 
organization is going to function efficiently, that is where we 
are going to have to go. It was sort of a gentleman's agreement 
that people would be providing their data and it would be 
accurate, but now that they are not, we have to go and rethink 
that, and I think that there has to be a penalty associated 
with that and, as was said before, you hit them in their 
pocket.
    Ms. Bordallo. In the beginning when ICCAT was first 
organized, was there better cooperation?
    Dr. Graves. There was better cooperation in terms of 
providing data, yes. But now when one of the things that has 
happened is that--and there weren't really any questions about 
the validity of the data, how accurate it was, but as now we 
have tied compliance to data so that countries are essentially 
reporting that they are out of compliance and will take a 
penalty, then you run into this problem. And so they are sort 
of self-reporting their infractions, and we do that really well 
in the United States, but I am not very sure that a lot of 
other parties do that.
    So I think before we had compliance associated with the 
reporting, you had very accurate numbers. I mean back when the 
EC was separate nations, France gladly reported that they had 
caught twice as many of bluefin tuna as they were supposed to. 
So what? At least fora science knew what the fishing mortality 
was for that year.
    Ms. Bordallo. Yes, thank you.
    Mr. Moore, on the issue of subsidies, if the United States 
were to promote subsidy reductions worldwide, are you concerned 
that the U.S. could potentially come under attack for subsidies 
the U.S. Government gives to fishermen, and what is the current 
status of international discussion on subsidy reduction?
    Mr. Moore. In filing our petition under Section 301 of the 
Trade Act last year, we did raise that issue. We outlined how 
the European Union, we believe, is violating a number of trade 
agreements by oversubsidizing their commercial fishing fleet. 
We feel that by oversubsidizing their fleet, they have created 
an overcapitalized fleet that needs to fish, and the result has 
been overfishing.
    We worked with the Secretary of Commerce, and he expressed 
a lot of our concerns about subsidies, about the European 
Union's overfishing, about their noncompliance. He expressed 
those concerns to Franz Fischler from the European Union. His 
response pointed out that U.S. commercial--some U.S. commercial 
fisheries are also subsidized. So that is an issue. As strictly 
a recreational fishing organization, it is not a concern of 
ours. Our members aren't subsidized by the government. However, 
it is an issue that some of our partners here in the U.S., you 
know, we would need to look at with them.
    Ms. Bordallo. So you feel then in your own opinion that we 
would come under attack of some kind, disagreement, whatever?
    Mr. Moore. I think it is an issue and I think it already 
has been raised, considering Mr. Fischler's response to 
Secretary Evans. So it is an issue that we would need to look 
at.
    Ms. Bordallo. Well, it is going to be a delicate situation 
all the way around. I can see that. But I do want to thank you 
gentlemen for your testimony today. Thank you, Mr. Chairman.
    Mr. Faleomavaega. Gentleman, the Chairman has just called. 
He is still tied up with votes and also additional business on 
the Floor, but he does send his apologies for not being here 
but would like very much that they will be submitting 
additional questions for the record and also for you to follow 
up with some questions.
    I am sure I share the Chairman's sentiments and wish you 
all the best on your trip to Dublin. Bring us a four leaf 
clover. I understand the Irish are not doing too well in the 
Rugby World Cup match tournament that is going on in Australia 
right now because I am vying for the Samoa as well as the All 
Blacks from New Zealand and the Wallabies from Australia and 
not the Springboks from South Africa.
    With that, Mr. Chairman, I also want unanimous consent that 
the statement by Mr. Saxton be made part of the record, and 
wish you all the best and come back and join us in the next 
hearing. The hearing is adjourned.
    [Whereupon, at 4:05 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
